Ofﬁce of Inspector General
Department of Veterans Affairs



  Semiannual Report to Congress
  October 1, 2005 - March 31, 2006
                           Message from the Inspector General



This Semiannual Report to Congress focuses on the Department of Veterans Affairs (VA)
Ofﬁce of Inspector General (OIG) accomplishments for the period of October 1, 2005,
through March 31, 2006. This report is issued in accordance with the Inspector General Act
of 1978, as amended.
A new format is being introduced in this report based on the
following OIG strategic goals:
  • Health care delivery
  • Beneﬁts processing
  • Financial management
  • Procurement practices
  • Information management
Presenting accomplishments by strategic goal demonstrates how
OIG components work together in addressing the complexities
of each issue. It also provides OIG customers with a broader
perspective of all OIG oversight efforts on the key issues facing VA.
During this reporting period, 121 OIG reports on VA programs
and operations resulted in systemic improvements and increased
efﬁciencies in quality of care, accuracy of beneﬁts, improved information technology
security, and economy in procurement. OIG audits, investigations, and other reviews
identiﬁed over $176 million in monetary beneﬁts, for a return of $5 for every dollar
expended. Our criminal investigators closed 515 investigations that led to 835 arrests,
indictments, criminal complaints, convictions, and pretrial diversions. OIG provided
investigative leads to other law enforcement agencies that directly resulted in 77 fugitive
felon arrests nationwide. Also, the work of criminal and administrative investigations and
the Hotline resulted in 293 administrative sanctions.
The Ofﬁce of Contract Review collaborates with VA’s Ofﬁce of Acquisition and Materiel
Management on special work to beneﬁt the VA procurement process; those efforts
recovered $17.6 million, for a return of $12 for every dollar expended.
OIG’s ongoing Combined Assessment Program (CAP) reviews the quality, efﬁciency, and
effectiveness of VA facilities. Auditors, investigators, and health care inspectors collaborate
to assess key operations at VA medical and beneﬁt facilities on a cyclical basis. The 31 CAP
reviews we completed this period highlighted numerous opportunities for improvement in
quality of care, management controls, and fraud prevention.
We appreciate the support we receive from VA’s Secretary, Deputy Secretary, and senior
management. We will continue to partner with them and Congress to maximize VA’s
effectiveness in providing beneﬁts to our Nation’s veterans.




GEORGE J. OPFER

Inspector General

                                      TABLE OF CONTENTS


Statistical Highlights ...............................................................................................i


VA and OIG Mission, Organization, and Resources .................................................1


Health Care Delivery...............................................................................................7


Beneﬁts Processing ..............................................................................................11


Financial Management..........................................................................................15


Procurement Practices .........................................................................................17


Information Management.....................................................................................21


Ofﬁce of Contract Review .....................................................................................23


Other Signiﬁcant Activities ...................................................................................31


Appendix A - Reviews By OIG Staff ......................................................................33


Appendix B - Status of OIG Reports Unimplemented For Over 1 Year...................43 


Appendix C - Inspector General Act Reporting Requirements ...............................53 


Appendix D - Glossary ..........................................................................................57

October 1, 2005 – March 31, 2006                                           VA Ofﬁce of Inspector General




                                 Statistical Highlights


     The following statistical data highlights OIG activities and accomplishments during
     the October 1, 2005–March 31, 2006 reporting period.

     DOLLAR IMPACT (Dollars in Millions)
        Better Use of Funds ...............................................................$22.9

        Fines, Penalties, Restitutions, and Civil Judgments ..................... $3.5

        Fugitive Felon Program ........................................................$120.7

        Savings and Cost Avoidance ..................................................$26.1

        Questioned Costs ..................................................................... $.9

        OIG Dollar Recoveries ............................................................. $2.4

        Contract Review Dollar Recoveries ...........................................$17.6

     RETURN ON INVESTMENT
        Dollar Impact ($176.5)/Cost of OIG Operations ($33.7) ................5:1
        Dollar Impact ($17.6)/Cost of Contract Review Operations ($1.5) . 12:1
     OTHER IMPACT
        Arrests .................................................................................. 379

        Indictments ........................................................................... 187

        Criminal Complaints .................................................................. 96

        Convictions ............................................................................ 150

        Pretrial Diversions ..................................................................... 23

        Fugitive Felon Apprehensions...................................................... 77

        Administrative Sanctions .......................................................... 293

     ACTIVITIES
     Reports Issued

          Combined Assessment Program (CAP) Reviews ............................. 31

          CAP Summary Reviews ................................................................2

          Joint Reviews .............................................................................1

          Audits ..................................................................................... 24

          Contract Reviews ...................................................................... 40

          Healthcare Inspections .............................................................. 21

          Administrative Investigations ........................................................2

     Investigative Cases
          Opened ................................................................................. 650
          Closed ................................................................................... 515
     Healthcare Inspections Activities
          Clinical Consultations...................................................................3
     Hotline Activities
          Contacts ..............................................................................7,464
          Cases Opened ........................................................................ 551
          Cases Closed .......................................................................... 555
                                                                                                             i
Semiannual Report to Congress   October 1, 2005 – March 31, 2006





ii
October 1, 2005 – March 31, 2006                  VA Ofﬁce of Inspector General




                VA and OIG Mission, Organization, 

                         and Resources


The Department of Veterans Affairs
Background
In one form or another, American
governments have provided veterans beneﬁts
since before the Revolutionary War. VA’s
historic predecessor agencies demonstrate
the Nation’s long commitment to veterans.
The Veterans Administration was founded in
1930, when Public Law 71-536 consolidated
the Veterans’ Bureau, the Bureau of Pensions,
and the National Home for Disabled Volunteer
Soldiers. The Department of Veterans Affairs
was established on March 15, 1989, by
Public Law 100-527, which elevated the
Veterans Administration, an independent
agency, to Cabinet-level status.

Mission
VA’s motto comes from Abraham Lincoln’s
second inaugural address, given March 4,                    VA Central Ofﬁce
1865, “to care for him who shall have borne             810 Vermont Avenue, NW
the battle and for his widow and his orphan.”               Washington, DC
These words are inscribed on large plaques on
the front of the VA Central Ofﬁce building on
Vermont Avenue in Washington, DC.
The Department’s mission is to serve America’s veterans and their families with
dignity and compassion and to be their principal advocate in ensuring that they
receive the care, support, and recognition earned in service to the Nation.

Organization
The VA has three administrations that serve veterans:
  • 	 Veterans Health Administration (VHA) provides health care.
  • 	 Veterans Beneﬁts Administration (VBA) provides income and readjustment 

      beneﬁts.

  • 	 National Cemetery Administration (NCA) provides interment and memorial 

      beneﬁts.


Resources
While most Americans recognize VA as a Government agency, few realize that it
is the second largest Federal employer. For ﬁscal year (FY) 2006, VA has a $72
billion budget and approximately 223,000 employees serving an estimated 24.3
million living veterans. To serve the Nation’s veterans, VA maintains facilities in



                   VA and OIG Mission, Organization, and Resources             •      1

Semiannual Report to Congress                October 1, 2005 – March 31, 2006



every state, the District of Columbia, the Commonwealth of Puerto Rico, Guam,
and the Philippines.
Approximately 201,000 of VA’s employees work in VHA. Health care is funded
at over $31 billion in FY 2006, approximately 43 percent of VA’s budget. VHA
provides care to an average of 60,000 inpatients daily. During FY 2006, there will
be over 58 million episodes of care for outpatients. There are 156 health care
systems, 135 nursing home units, 207 veterans centers, 43 domiciliary residential
rehabilitation treatment programs, and 935 outpatient clinics (including hospital
clinics). In addition, VHA is funded at over $1.1 billion for capital projects and the
state extended care grant program.
Veterans beneﬁts are funded at $36.7 billion in FY 2006, about 51 percent of
VA’s budget. Almost 13,000 VBA employees at 57 VA Regional Ofﬁces (VAROs)
provide beneﬁts to veterans and their families. Over 3 million veterans and
their beneﬁciaries receive compensation beneﬁts valued at $31.3 billion. Also,
$3.5 billion in pension beneﬁts are provided to approximately 533,000 veterans
and survivors. VA life insurance programs insure 7.2 million lives, with policies
totaling $1.1 trillion. Approximately 230,000 home loans will be guaranteed in FY
2006, with a value of approximately $36.1 billion.
With the opening of Great Lakes National Cemetery and Georgia National
Cemetery, NCA operates and maintains 123 national cemeteries and 33 related
installations. VA plans to begin interments at Sacramento Valley National
Cemetery by the end of FY 2006. NCA operations, capital funding, and all of VA’s
burial beneﬁts account for approximately $347 million of VA’s budget. Interments
in VA cemeteries will rise to about 101,800 by FY 2006 and approximately
352,900 headstones and markers will be furnished for veterans and their eligible
dependents in VA and other Federal cemeteries, state veterans’ cemeteries, and
private cemeteries.

VA Ofﬁce of Inspector General
Background
The OIG was administratively established on January 1, 1978, to consolidate
audits and investigations into a cohesive, independent organization. In October
1978, Public Law 95-452, the Inspector General Act (IG Act), was enacted,
establishing a statutory Inspector General (IG) in VA.

Role and Authority
The IG Act states that the IG is responsible for: (1) conducting and supervising
audits and investigations; (2) recommending policies designed to promote
economy and efﬁciency in the administration of, and to prevent and detect
criminal activity, waste, abuse, and mismanagement in VA programs and
operations; and (3) keeping the Secretary and Congress fully informed about
problems and deﬁciencies in VA programs and operations and the need for
corrective action.
The Inspector General Act Amendments of 1988 provided the IG with a separate
appropriation account, and revised and expanded procedures for reporting
semiannual workload to Congress. The IG has authority to inquire into all VA
programs and activities as well as the related activities of persons or parties
performing under grants, contracts, or other agreements. The inquiries may be in
the form of audits, investigations, inspections, or other special reviews.




2    •    VA and OIG Mission, Organization, and Resources

October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General



Organization
The OIG is organized into three line elements; the Ofﬁces of Investigations, Audit,
and Healthcare Inspections, plus a contract review ofﬁce and a support element.
In addition to the Washington, DC, headquarters, OIG has ofﬁces located in
23 cities throughout the country. The organizational chart on page 8 lists the
locations. For more information, please visit OIG’s Internet home page at
www.va.gov/oig.

Ofﬁce of Investigations
The Ofﬁce of Investigations (OI) conducts criminal and administrative
investigations of wrongdoing in VA programs and operations in an independent
and objective manner. OI seeks prosecution, administrative action, and/or
monetary recoveries where appropriate as it strives to establish an environment in
VA that is safe and free from criminal activity and management abuse.

Ofﬁce of Audit
The Ofﬁce of Audit (OA) contributes to the improvement and management of VA
programs and activities by providing customers with timely, balanced, credible,
and independent ﬁnancial and performance audits that address the economy,
efﬁciency, and effectiveness of VA operations. OA identiﬁes constructive solutions
and opportunities for improvement.

Ofﬁce of Healthcare Inspections
The Ofﬁce of Healthcare Inspections (OHI) conducts oversight, monitoring, and
evaluation of VHA quality assurance programs and the activities of the VHA Ofﬁce
of the Medical Inspector. OHI reviews specialized VA treatment programs, patient
care, quality assurance issues, and hotline allegations involving medical care
issues to strengthen VA’s health care programs for veterans and their families.

Ofﬁce of Management and Administration
The Ofﬁce of Management and Administration contributes to OIG results by
providing management, planning, and support services to OIG employees
nationwide, across every OIG operational element. Support services include
operational support, hotline, budget and ﬁnance, administrative services,
information technology, and human resources management.

Resources
The FY 2006 funding for OIG operations provides $69.1 million from
appropriations. OIG allocated 485 full-time equivalent (FTE) employees from
appropriations for the FY 2006 stafﬁng plan to perform all OIG mandated,
reactive, and proactive work.
In addition, OIG receives $3.3 million through a reimbursable agreement with
VA for contract review services to perform preaward and postaward contract
reviews and other pricing reviews of Federal Supply Schedule (FSS) contracts. An
additional 26 FTE are reimbursed through this agreement.




                  VA and OIG Mission, Organization, and Resources            •
   3
Semiannual Report to Congress       October 1, 2005 – March 31, 2006





                    OIG Organizational Chart




4   •   VA and OIG Mission, Organization, and Resources
October 1, 2005 – March 31, 2006                  VA Ofﬁce of Inspector General


OIG Mission Statement
  OIG is dedicated to helping VA ensure that veterans and their
  families receive the care, support, and recognition they have
  earned through service to their country. OIG strives to help VA
  achieve its vision of becoming the best-managed service delivery
  organization in Government. OIG continues to be responsive to
  the needs of its customers by working with the VA management
  team to identify and address issues that are important to them
  and the veterans served.
In performing its mandated oversight function, OIG conducts investigations,
audits, and health care inspections to promote economy, efﬁciency, and
effectiveness in VA activities, and to detect and deter criminal activity, waste,
abuse, and mismanagement. Inherent in every OIG effort are the principles of
quality management and a desire to improve the way VA operates by helping it
become more customer driven and results oriented.
OIG keeps the Secretary and Congress fully and currently informed about issues
affecting VA programs and the opportunities for improvement. In doing so,
OIG staff strives to be leaders and innovators, and to perform their duties fairly,
honestly, and with the highest professional integrity.

Strategic Challenges Facing VA
OIG has identiﬁed ﬁve strategic areas among VA’s programs and services for
America’s veterans that continue to present signiﬁcant management challenges
for the Department:
  1.   Health Care Delivery
  2.   Beneﬁts Processing
  3.   Financial Management
  4.   Procurement Practices
  5.   Information Management
This semiannual report highlights OIG accomplishments according to these ﬁve
strategic goals. It discusses the key issues of each goal, and describes key OIG
team efforts and successes in addressing them.




                  VA and OIG Mission, Organization, and Resources              •
     5
Semiannual Report to Congress   October 1, 2005 – March 31, 2006





6
October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General




                       Health Care Delivery


OIG STRATEGIC GOAL #1: Improve veterans’ access to high-quality
  health care by identifying opportunities to improve the management
  and efﬁciency of VA’s health care delivery systems, and by detecting,
  investigating, and deterring fraud and other criminal activity.
The primary mission of VHA is to serve the health care needs of
eligible veterans by providing quality inpatient, outpatient, and
long-term health care services. Quality of care remains the primary
health care focus of both VHA and OIG. Veterans should receive               Veterans’
medical care that meets the highest standards. Improvements in
the measurement and effective use of medical outcomes data will               health
provide opportunities for VHA to improve the health care provided to        care must
veterans. VHA will continue to develop and implement appropriate
medical outcome measures consistent with industry and Government
                                                                             meet the
standards that demonstrate the level of health care VA provides,              highest
and OIG will evaluate those measures. Fiscal constraints will require       standards.
that VHA continue to improve the efﬁciency of health care delivery
without sacriﬁcing the quality of medical care provided to veterans.
The OIG has helped VA improve health care delivery through 23 CAP
reviews at VHA facilities and numerous audit, investigative, and inspection efforts
during this reporting period. OIG recommendations resulted in managers issuing
new and revised procedures, improving services, improving quality of patient care
and access to care, and making environmental and safety improvements. Here
are several examples of improvement from OIG oversight work.

INSPECTION: Feeding and Swallowing Problems Widespread
OIG evaluated whether VHA medical facilities were appropriately managing
the feeding of patients with a swallowing disorder and those requiring feeding
assistance at meals. The review found considerable variability in practice,
including lapses in care and inadequate communication between disciplines.
Discharge diet orders were frequently incorrect and follow-up was uneven.
Patients were often given thickened liquids and restrictive, less palatable
diets. The Under Secretary for Health concurred with OIG’s ﬁndings and
recommendations and provided acceptable improvement plans. VHA will establish
a multi-disciplinary task force to make recommendations on a consistent standard
of care and the need for national policy. The ﬁrst task force meeting will take
place by June 30, 2006, and a draft policy will be disseminated for review by
September 30, 2007.

INSPECTION: Colorectal Cancer Detection Can Be Timelier
An OIG health care inspection evaluating VHA care for colorectal cancer (CRC)
found patients were appropriately screened, clinicians appropriately responded
to requests for evaluations, and the length of time from diagnosis to earliest
treatment was acceptable. Treatment planning appeared to be coordinated across
disciplines. However, OIG found the length of time from presentation to diagnosis
was excessive, and patients were not consistently notiﬁed of their CRC diagnoses
within a reasonable amount of time. The Under Secretary for Health concurred
with OIG’s ﬁndings and recommendations and provided acceptable improvement
plans.



                                                  Health Care Delivery       •    7

Semiannual Report to Congress                October 1, 2005 – March 31, 2006



INSPECTION: Moderate Sedation Needs Improvement
An OIG health care inspection at 30 facilities, to assess whether patients who
received moderate (conscious) sedation during invasive procedures performed
outside the operating room (OR) received a commensurate level of care as
patients who had their procedures performed in the OR, identiﬁed areas for
improvement at 20 facilities. The Under Secretary for Health agreed with OIG’s
recommendations and provided acceptable improvement plans

INSPECTION: Emergency Preparedness Needs Improvement
OIG’s health care inspection staff found VHA had properly addressed emergency
preparedness at the national level, and many facilities were generally compliant
with regulatory guidelines, but emergency preparedness education and training
were not consistently provided to employees at the facility level. Facility hazard
vulnerability analyses did not consistently reﬂect actual risks to the facility. Some
high-risk laboratory safety recommendations from OIG’s 2002 report had not yet
been implemented. Without adequate disaster or emergency preparation, VHA
facilities could be vulnerable to increased facility damages and increased injuries
or death to employees and patients. OIG made ﬁve recommendations; the Under
Secretary for Health agreed and provided acceptable improvement plans.

INVESTIGATION: VA Employee Guilty in Negligent Homicide
At least one VAMC patient died as a result of false and forged medical records
to pharmaceutical companies that allowed otherwise ineligible patients to be
included in oncology studies. As a result of an OIG investigation, a former
program specialist at the VAMC pleaded guilty to criminally negligent homicide,
making false statements, and mail fraud. He was sentenced to 71 months’
incarceration, 36 months’ supervised release, and ordered to pay $638,775 in
restitution.

INVESTIGATION: Impersonator Steals VA Medical Services
A joint OIG and VA police investigation revealed that a man had fraudulently
obtained health care services from a VAMC by using the identity of his deceased
brother. The defendant pleaded guilty to theft of services and was sentenced to
206 days’ incarceration.

INVESTIGATION: Identity Thief Uses VA Health Beneﬁts
A joint OIG and Social Security Administration (SSA) OIG investigation revealed
that, after stealing the identity of a veteran with whom he previously resided, a
non-veteran fraudulently received $62,961 in VA health beneﬁts and more than
$31,000 in social security disability beneﬁts. The non-veteran pled guilty to theft
and making false statements.

INVESTIGATION: Operation Clean-Up Fugitive Sentenced
Operation Clean-Up was an award-winning joint investigation of illegal drug
distribution impacting a VAMC, a local college, and the surrounding community.
Conducted by OIG, the Drug Enforcement Administration (DEA), the Bureau
of Alcohol, Tobacco, Firearms and Explosives, and a local drug task force, it
concerned the sale of crack/cocaine, pharmaceuticals, and ﬁrearms in and around
the VAMC. The last fugitive subject of the Operation Clean-Up investigation
surrendered, pleaded guilty to distributing a Schedule II controlled substance,
and was sentenced to 10 years’ incarceration, with 9 years and 5 months
suspended, and an indeﬁnite term of probation. Operation Clean-Up resulted
in 52 arrests. The four main subjects were sentenced to a combined total of 70


8    •    Health Care Delivery

October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General


years’ imprisonment and 18 years’ probation. Fifty subjects have been convicted
on various drug charges, and the remaining two await trial.

INVESTIGATION: Pharmacist Caught Stealing Drugs
A joint investigation by OIG and VA police determined that a VA pharmacist
was diverting controlled substances and medical supplies. He was sentenced to
3 years’ probation, ordered to repay VA $5,444, ﬁned $1,000, and ordered to
perform 15 hours a week of community services for 3 years.

INVESTIGATION: Thirteen Arrested for Drug Diversion
A joint investigation conducted by OIG, DEA, Health and Human Services
OIG, U.S. Secret Service, and several local police departments found that
pharmaceuticals diverted from a VAMC and other area medical facilities were
being sold and purchased, in some cases, with counterfeit currency. Investigators
arrested thirteen subjects in Buffalo and the surrounding area on charges of illegal
distribution of a controlled substance and conspiracy to distribute a controlled
substance.

AUDIT: Oxygen Supply Management Needs Improvement
In 2004, the San Juan VAMC’s liquid oxygen supply became depleted, precipitating
emergency deployment of reserve oxygen. Following the incident, the VAMC and
VHA initiated several corrective actions. To help prevent similar occurrences, VHA
issued a national Patient Safety Alert and strengthened contract administration
requirements for new national oxygen contracts. Following the audit of oxygen
supply management practices at the VAMC, OIG recommended the Under
Secretary for Health continue to provide oversight of the VAMC’s oxygen supply
management and ensure the VAMC updates its oxygen control policy, administers
contract requirements effectively, monitors the oxygen supply continuously,
periodically reevaluates usage requirements, and addresses system maintenance
issues consistently and promptly. The Under Secretary for Health agreed and
provided acceptable implementation plans.

AUDIT: Access to Long-Term Nursing Home Care Uneven
The OIG evaluated veterans’ access to long-term nursing home care. The
evaluation showed VA is ensuring mandatory care veterans have access, but
non-mandatory admissions varied signiﬁcantly. VHA could improve the patient
assessment process by using the results of minimum data set (MDS) assessments
to ensure that only patients continuing to need such care are residing in VA
or contracted facilities. The Under Secretary for Health agreed with report
recommendations to address the uneven access of non-mandatory veterans and
ensure that MDS assessments are routinely and timely completed and used to
identify veterans who should be considered for discharge or placement in more
appropriate care settings.

AUDIT: Survey Finds Special Disabilities Capacity Adequate
For years, VA met a statutory mandate to provide an annual Special Disabilities
Capacity Report, which addressed VHA’s ability to provide for the specialized
treatment and rehabilitative needs of disabled veterans. VA’s General Counsel
determined the statutory reporting requirement expired after April 1, 2004, and
that VA would provide the FY 2004 Capacity Report to Congress for informational
purposes only. As a consequence, OIG discontinued work on the audit and
provided the results of the completed survey work. The survey showed that, as
reported in past years, data relating to spinal cord injury/disorders, blindness,



                                                   Health Care Delivery      •
     9
Semiannual Report to Congress               October 1, 2005 – March 31, 2006


prosthetics and sensory aids, and traumatic brain injury were adequately supported.
The survey also found that the data reported for specialized mental health programs
(including stafﬁng, numbers of programs, and expenditures) were adequately
supported.

HOTLINE: Review Prompts Step to Address Nursing Shortage
Following a Hotline call, OIG arranged for a VHA review that conﬁrmed a nursing
shortage on the dementia units at a VA medical center. The facility had begun
actively recruiting for additional nursing staff. To address the shortage until new
staff can be hired, management shifted nurses to the dementia units. The review
also determined the dementia units needed lift equipment to assist in transferring
patients. Management requested an emergency purchase of the necessary
equipment.

CAP REVIEW: Problems Persist at VHA Facilities
During the period October 2005 through March 2006, OIG issued 23 reports of CAP
reviews on the evaluation of facility operations focusing on patient care, quality
management, and ﬁnancial and management controls at selected VA health care
systems and Veterans Affairs Medical Center (VAMCs). Deﬁciencies identiﬁed
during prior CAP reviews relating to management of veterans health care programs
were discussed in OIG’s Summary Report of CAP Reviews at VHA Medical Facilities
October 2004 through September 2005, issued March 31, 2006, as summarized
below. During this reporting period, OIG identiﬁed similar problems at the medical
facilities.
Pulse Point                         Number of instances          Number inspected

Management of Supply Inventories                  44                    47
Medical Care Collections Fund                     39                    42
Information Security                              35                    46
Contract Award & Administration                   33                    47
Environment of Care                               28                    48
Pharmacy Controlled Substances Accountability     27                    48
Quality Management                                22                    48
Government Purchase Cards                         21                    45
Bulk Oxygen Management                            15                    19
Management of Equipment Inventories               15                    19
Accounts Receivable                               13                    21
Moderate Sedation                                 12                    19
Pharmacy Security                                  9                    19
Pressure Ulcer Management                          9                    20
Part-Time Physician Time & Attendance              9                    30
Emergency Preparedness                             7                    16
Colorectal Cancer Management                       5                     9
Unliquidated Obligations                           4                    10
Agent Cashier                                      3                     8




10     •    Health Care Delivery

October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General




                       Beneﬁts Processing


STRATEGIC GOAL #2: Improve the delivery of beneﬁts and services
  by identifying opportunities to improve the quality, timeliness, and
  accuracy of beneﬁts processing, and reduce criminal activity in
  the delivery of beneﬁts through proactive and targeted audit and
  investigative efforts.
VA provides veterans and their dependents a broad array of beneﬁt programs
primarily designed to aid in the transition from military service,
compensate for injury or death, and honor veterans’ service. Beneﬁt
programs covering compensation and pension (C&P), education,
loan guaranty, vocational rehabilitation and employment, and life
insurance deliver about $36.7 billion in annual monetary beneﬁts.         Veterans
VA administers these beneﬁt programs through the VBA’s network             deserve
of regional ofﬁces, beneﬁt ofﬁces, and at DoD sites where service
personnel get discharged.                                                  timely,
                                                                               accurate
During this reporting period, OIG efforts to help improve VA
beneﬁts processing while deterring and detecting fraud, waste,                 beneﬁts
and abuse combined numerous audit, investigative, and inspection               delivery.
efforts and eight CAP reviews. Here are several examples of the
accomplishments during this reporting period.

INVESTIGATIVE PROJECT: Fugitive Felon Program
The OIG Ofﬁce of Investigations’ Fugitive Felon Program identiﬁes VA beneﬁts
recipients who are fugitives from justice. The program evolved after Congress
enacted Public Law 107-103, the Veterans Education and Expansion Act of 2001,
prohibiting veterans who are fugitive felons or their dependents from receiving
speciﬁed beneﬁts. The program matches fugitive felon ﬁles of law enforcement
organizations against more than 11 million records contained in VA beneﬁt system
ﬁles. Once a veteran is identiﬁed as a fugitive, information on the individual is
provided to the law enforcement organization responsible for serving the warrant
to assist in the apprehension, and given to the Department so that, subsequent
to the provision of the requisite due process, beneﬁts may be suspended and
overpayments recovered.
OIG has negotiated Memoranda of Understanding/Agreements with the U.S.
Marshals Service (USMS), the National Crime Information Center, and 12 states,
and is pursuing additional agreements. The program has led to additional
cooperative efforts involving OIG, VBA, and VHA.
Investigative leads provided to law enforcement agencies since the inception
of the program have led to the arrest of fugitives wanted for murder,
manslaughter, sexual assault, robbery, drug offenses, and other serious felonies.
The apprehension of these subjects has made VA facilities safer for veterans,
employees, and the general public. In this reporting period:
  • 	The Federal Bureau of Investigation (FBI) sought OIG assistance locating a 

     veteran wanted for possession and distribution of child pornography, who 

     subsequently admitted to sexually molesting his own son for 10 years. 

     Agents from OIG and the FBI arrested the veteran.





                                                  Beneﬁts Processing       •    11

Semiannual Report to Congress                          October 1, 2005 – March 31, 2006



   • 	Agents from OIG, VA police, and the USMS arrested a veteran classiﬁed as
      a violent offender who was wanted for violating conditions of probation on
      charges of aggravated sexual assault of a child.
   • 	A USMS task force sought OIG assistance ﬁnding a fugitive wanted for 

      distribution of narcotics in a school zone pursuant to a felony probation 

      violation warrant. The fugitive was located and arrested. 

The following table identiﬁes the statistics relating to the Fugitive Felon Program.


                                                                             This        Total
             Fugitive Felon Program                                        Reporting     Since
                                                                            Period     Beginning

Felony Warrants Received from Participating                                    2.1M        11.3M
Agencies

Matched Records                                                                3,388      53,301

Referred to Law Enforcement Agency Which                                       2,945      23,723
Holds the Warrant

Arrests Made by Law Enforcement Agency                                           77          633
Which Holds the Warrant

Arrests Made by OIG                                                             103          577

Referrals to VA for Beneﬁts Suspension                                        4,851*      23,836

Estimated Identiﬁed Overpayments                                             $55.7M      $273.9M

Estimated Cost Avoidance                                                       $65M      $302.3M
* 	 Referrals include matched records from periods prior to this report.


INVESTIGATION: Death Match Pinpoints Suspicious Payees
The Ofﬁce of Investigations conducts an ongoing proactive project in coordination
with OIG’s Information Technology and Data Analysis section. The death
match project identiﬁes individuals who may be defrauding VA by receiving
beneﬁts intended for veterans who have died. When indicators of fraud are
discovered, the matching results are transmitted to OIG investigative ﬁeld
ofﬁces for appropriate action. In this reporting period, OIG reviewed 177 new
leads and developed 140 criminal and administrative cases, resulting in 32
arrests. Investigations have recovered $2.2 million, with another $700,000 in
anticipated recoveries. The 5-year projected cost avoidance to VA is estimated
at $7.1 million. To date, the match has identiﬁed in excess of 10,401 possible
investigative leads. Over 8,481 leads have been reviewed, resulting in the
development of 1,088 criminal and administrative cases. Investigations have
resulted in the actual recovery of $18.6 million, with an additional $8.3 million
in anticipated recoveries. In addition to these recoveries, the 5-year projected


12      •     Beneﬁts Processing

October 1, 2005 – March 31, 2006                VA Ofﬁce of Inspector General


cost avoidance to VA is estimated at $44.7 million. To date, there have been 177
arrests in these cases with several additional cases awaiting judicial actions.

INVESTIGATION: Veteran Jailed For Pension Beneﬁts Fraud
As a result of a OIG investigation, a veteran who admitted to providing false
statements to VA to fraudulently receive pension beneﬁts was sentenced to
180 days’ imprisonment, 3 years’ probation, and ordered to make restitution of
$48,298.

INVESTIGATION: Veteran Sentenced for False Claims
A joint OIG and SSA OIG investigation determined that a veteran fraudulently
claimed she was 100 percent disabled in order to collect disability beneﬁts from
VA and SSA. She pleaded guilty to mail fraud charges and was sentenced to 37
months’ incarceration plus 36 months’ probation and ordered to pay restitution of
$144,225.

CAP REVIEW: OIG Notes Problems at VAROs
During the period October 2005 through March 2006, OIG conducted eight
CAP reviews to evaluate beneﬁts administration and ﬁnancial and management
controls at selected VAROs. Deﬁciencies identiﬁed during prior CAP reviews
relating to management of veterans health care programs were discussed in OIG’s
Summary Report of CAP Reviews at VBA Regional Ofﬁces October 2004 through
September 2005, issued March 31, 2006, as summarized below. During this
reporting period, OIG identiﬁed similar problems at the medical facilities.
OIG found:
Pulse Point                          Number inspected Number of instances
C&P Hospital Adjustments                         17                   17
Government Purchase Cards                        10                   15
Vocational Rehabilitation & Employment            9                   13
Fiduciary & Field Examinations                    8                   13
Security of Sensitive Records                     8                   17
Information Security                              7                   15
Beneﬁts Delivery Network Information
Management Controls                               6                   17
C&P Payments to Incarcerated Veterans             5                   15
Management Performance                            3                     3
Large Retroactive Payment Controls                3                   17
C&P Future Examinations                           2                     2

INVESTIGATION: Fiduciary Caught Stealing Veterans’ Funds
A VA-appointed custodian, who had ﬁduciary responsibility for 11 incompetent
veterans, was sentenced to serve 12 months’ and 1 day’s incarceration, 3 years’
probation, and ordered to pay $32,325 in restitution. An OIG investigation
determined the ﬁduciary stole funds intended for veterans in her care.




                                                 Beneﬁts Processing         •    13

    Semiannual Report to Congress             October 1, 2005 – March 31, 2006



                           INVESTIGATION: Deceased Veteran’s
Richmond Times-Dispatch    Spouse Jailed in Beneﬁts Fraud Case
     Richmond, VA
    March 25, 2006	        A joint OIG, FBI, and SSA investigation determined
                           that a spouse of a deceased veteran failed to report her
                           remarriage resulting in the overpayment of $100,887 in
                           dependency and indemnity compensation. After pleading
                           guilty to health care fraud (Medicaid) and defrauding VA
                           and SSA, she was sentenced to 27 months′ incarceration
                           and 3 years′ of supervised release, and was ordered to
                           pay restitution in the amount of $492,000 ($100,887 to
                           VA, $42,450 to SSA and $348,663 to the State).

                           HOTLINE: Tip Helps VBA Identify $36,262
                           Overpayment
                           A Hotline call prompted a VBA review of a veteran’s
                           claim folder that determined he had not returned
                           eligibility veriﬁcation reports since 2002. The regional
                           ofﬁce terminated his beneﬁts, creating an overpayment
                           of $36,262. An associated apportionment award was
                           suspended from the date of the last payment.

                           HOTLINE: Terminated VA Beneﬁts,
                           Retirement Restored
                           A review determined that, through a mistake at the
                           local regional ofﬁce, a veteran’s death was erroneously
                           entered into his claim ﬁle and reported to DoD. As a
                           result, the veteran’s VA beneﬁts and military retirement
                           payments were terminated. All records have been
                           corrected and VA compensation restored.




    14     •    Beneﬁts Processing

October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General




                     Financial Management


STRATEGIC GOAL #3: Assist VA in achieving its ﬁnancial management
  mission of providing all VA activities with accurate, reliable, and timely
  information for sound oversight and decision making, and identify
  opportunities to improve the quality, management, and efﬁciency of
  VA’s ﬁnancial management systems.
VA’s ﬁnancial management organization exists to provide information
for sound management decision making to aid in the delivery of
high-quality services to veterans and their families. Over 3,000
employees serve in ﬁnancial management positions throughout
VA and have stewardship responsibilities for an annual budget of             A $72
approximately $72 billion in 2006 and accountability for safeguarding        billion
assets totaling about $49 billion.
                                                                             budget
OIG will work to improve the effectiveness and efﬁciency of VA
ﬁnancial management with the goal of making VA operate in a more            demands
business-like manner. While addressing current and future ﬁnancial           strong
management challenges, OIG will continue to identify best business
practices aimed at helping VA achieve its ﬁnancial management
                                                                            controls.
goals. Reviews of VA ﬁnancial management during the reporting
period include:

AUDIT: VA Gets “Clean” Audit Opinion for FY 2005 and 2004
OIG contracted with the independent public accounting ﬁrm Deloitte & Touche LLP
to audit VA’s FY 2005 Consolidated Financial
Statement (CFS). The report provided an
unqualiﬁed (“clean”) opinion on VA’s FY 2005
and FY 2004 CFS. However, the report on
internal control identiﬁed the following three
reportable conditions, all of which are material
weaknesses:
  • Information technology security controls.
  • Integrated ﬁnancial management system.
  • Operational oversight.
During FY 2005, VA management took
corrective action to eliminate the judgments
and claims reportable condition from the
FY 2004 audit. The report continues to show
that VA is not in substantial compliance
with requirements of the Federal Financial
Management Improvement Act of 1996 and
Ofﬁce of Management and Budget (OMB)
Circular A-127, “Financial Management
Systems.” The Chief Management Ofﬁcer
agreed with the reported ﬁndings and recommendations. OIG will follow up and
evaluate the implementation actions during its audit of the VA’s FY 2006 CFS.




                                                Financial Management    •    15

Semiannual Report to Congress              October 1, 2005 – March 31, 2006



AUDIT: Homeless Veterans Project Should Repay $714,131
OIG audited the ﬁnancial records of a non-proﬁt corporation receiving VA grant
and per diem funds to operate a homeless veterans transitional housing project.
The audit showed the organization:
  • 	Did not establish procedures to ensure proper disbursement and accounting
     for VA funds.
  • 	Inappropriately converted the housing project to “for-proﬁt” apartments.
  • 	Received excess per diem payments.
  • 	Submitted grossly inﬂated per diem budgets.
OIG determined $714,131 of the $806,731 received in grant and per diem
payments should be repaid to VA. The report recommended the Director
of VA’s Homeless Providers Grant and Per Diem Program initiate action to
recover $251,560 of grant funds, rehabilitate the housing project, and recover
$462,571 of per diem overpayments. The Director agreed with the ﬁndings and
recommendations and provided acceptable implementation plans.

AUDIT: Evaluation Finds Management Lapses at Cemetery
OIG evaluated selected areas of the VA Riverside National Cemetery’s (RNC)
business operations to determine if there were internal control weaknesses
and potential ﬁnancial mismanagement. Auditors found instances of ﬁnancial
mismanagement, but did not identify any illegal or fraudulent activities. Results
also showed that, while RNC agreements provided the Government with a fair
value, the agreements had not been established and administered in accordance
with VA and Federal regulations and lacked adequate oversight. Because
regulations related to the use of Government property and resources and the
solicitation of donations were not followed, boundaries between the RNC and
its non-proﬁt support committee’s operations were not adequately deﬁned to
ensure the support committee did not receive preferential treatment. OIG made
recommendations to improve NCA and RNC management. The Under Secretary
for Memorial Affairs agreed with the conclusions and recommendations and
provided acceptable improvement plans.

AUDIT: Mismanagement of PCS Travel Program
Senator Charles Grassley, Chairman of the Senate Committee on Finance,
requested an audit of VA’s permanent change of station (PCS) travel program,
based on allegations he received. OIG’s audit substantiated 9 of the 13
allegations. VA needed to strengthen controls for obligating and advancing PCS
travel funds. OIG identiﬁed concerns with Financial Services Center employees’
knowledge of the Federal Travel Regulation, training, and experience. Also, the
audit revealed inadequate support for the planned sole-source task order to
outsource PCS services for VA employees affected by Hurricane Katrina. As a
result of this audit, OIG calculated $521,591 (12 percent) of $4,455,933 in PCS
travel funds could have been used for other VA activities. The Assistant Secretary
for Management agreed with the ﬁndings and provided acceptable implementation
plans.




16    •    Financial Management

October 1, 2005 – March 31, 2006                VA Ofﬁce of Inspector General




                    Procurement Practices


STRATEGIC GOAL #4: Ensure that VA’s acquisition programs support
  our Nation’s veterans, other Government entities, and the taxpayer by
  providing its customers with quality products, services, and expertise
  delivered in a timely fashion, for a reasonable price, and to the right
  place.
With over $6 billion estimated for FY 2006 expenditures for supplies, services,
construction, and equipment, VA is one of the largest procurement
and supply entities in the country. VA’s Ofﬁce of Acquisition and
Materiel Management (OA&MM) operates and maintains an extensive
supply system for the Department and its external customers.
OA&MM conducts national acquisition activities from VA Central
                                                                               VA buys
Ofﬁce, Washington, DC; and the National Acquisition Center                    $6 billion
(NAC), Hines, IL. In addition to procuring supplies and services             in supplies
for VA use, OA&MM awards and administers the FSS schedules for
pharmaceuticals, medical/surgical supplies and equipment, and                    and
health care services for the entire Federal government and other               services
entities authorized to use the schedules.
                                                                              each year.
The challenge for OIG is to develop and implement an effective
plan to conduct oversight of VA’s widespread and diverse
acquisition activities and provide VA management with ﬁndings and
recommendations that will improve the efﬁciency and effectiveness
of the acquisition program. During this reporting period, OIG efforts to help
improve VA procurement processes while deterring and detecting fraud, waste,
and abuse involved audits, investigative efforts, and CAP reviews. Here are
several examples of the accomplishments during this reporting period.

CAP REVIEW: OIG Notes Persistent Procurement Problems
CAP reviews at 14 of 23 VA facilities tested disclosed a need to improve contract
award and administration practices. Management needed to strengthen controls
to ensure staff follow preaward and postaward contract policies and procedures,
monitor contract performance, review invoices before issuing contract payments,
maintain required documentation, adequately document justiﬁcation for contract
renewals, and provide contracting ofﬁcer technical representative training as
required. In addition, management of supply inventories was deﬁcient at 16
of the 23 facilities. Staff did not effectively monitor inventory levels using
certain automated controls, reduce excess inventory as required by VA, and
adequately update inventory records to accurately reﬂect inventory balances.
Facilities needed to require staff to monitor, adjust, and excess stock levels as
required. Management of equipment inventory at 8 of the 23 sites tested needed
improvement. To properly account for all equipment, staff needed to perform
physical inventories properly, accurately, and timely, and conduct follow up
inventories when required.

INVESTIGATION: CEO, VA Ofﬁcials Guilty in Bribery Scheme
An OIG investigation found that a company chief executive ofﬁcer (CEO) doing
business with a VAMC provided several airline and train tickets, a 2-night
hotel stay, and $5,000 cash to the VAMC’s chief of acquisition and materiel
management. The CEO lied to OIG investigators about the bribery of a VA



                                              Procurement Practices       •     17

Semiannual Report to Congress                October 1, 2005 – March 31, 2006



employee, and subsequently pled guilty to making a false statement. He was
sentenced to 12 months’ probation and ordered to pay a $3,500 ﬁne. The
VAMC acquisition manager was sentenced to 8 months’ imprisonment, to 36
months’ probation, and to pay a $5,000 ﬁne. Additionally, a VAMC contract
specialist was charged with receiving an illegal gratuity for receiving resort hotel
accommodations from the same vendor.

INVESTIGATION: Contractors Bribe Supervisor
An OIG investigation determined two contractors and a VA plumbing supervisor
were engaged in a scheme to inﬂate and falsify purchase orders for emergency
and routine plumbing repairs at a VAMC. Over a 3-year period, the contractors
overcharged the VAMC more than $80,000 with the VA supervisor receiving
at least this amount in kickbacks. One contractor was sentenced to 5 years’
probation, ordered to make restitution to VA of $66,410, and ﬁned $4,000
after his conviction for conspiracy to accept a bribe and bribery. The other was
previously sentenced.

INVESTIGATION: CMOP Director Jailed in Extortion Attempt
The former director of a consolidated mail outpatient pharmacy (CMOP) pleaded
guilty to conspiracy and bribery charges for conspiring to extort money from a
company that had been awarded a $50 million contract for the CMOP. He was
sentenced to 40 months’ incarceration, 2 years’ probation, and ﬁned $7,500. The
defendant had demanded partial ownership of the employee leasing company and
one third of all revenue the company would derive from the CMOP contract.

INVESTIGATION: Arrests Follow $63,000 Kickback
An OIG investigation determined a subcontractor working on a $20 million VA
construction project paid a $63,000 kickback to a prime contractor in order
to secure work on a VAMC project and increased the price of the proposed
subcontract by approximately the same amount. The subcontractor was
sentenced to serve 2 years’ probation, ﬁned $2,000, and ordered to pay
restitution to VA in the amount of $71,750. A second subcontractor on the
project who submitted a fraudulent $41,000 pay request pled guilty to submitting
false statements. The CEO and subcontractor corporation were indicted for
conspiracy to defraud the United States, paying an illegal kickback, and making
false statements. A project manager for the prime contractor was indicted
for conspiracy to defraud the United States, accepting an illegal kickback, and
falsifying a document to obstruct justice.

INVESTIGATION: VA Ofﬁcial, Contractors Plead Guilty
A VA ofﬁcial employed at a CMOP was arrested on public corruption charges
stemming from kickbacks the ofﬁcial received from a vendor in exchange for
awarding a “no bid” contract at an inﬂated price. The VA ofﬁcial pleaded guilty to
a public corruption charge in connection with her duties at VA. Two Government
contractors also pleaded guilty, one to conspiracy in connection with having paid
the VA ofﬁcial more than $100,000 in kickbacks, and the other to acts affecting a
personal ﬁnancial interest. All three are awaiting sentencing.

INVESTIGATION: VA Contractor Guilty in False Claims Case
An OIG investigation revealed that a VAMC employee who was allowed to work
during off-duty hours as a VA contractor providing medical transcription services
overstated her medical transcription line counts on 25 fraudulent invoices,
resulting in an overpayment of $46,356. After pleading guilty to making false


18     •    Procurement Practices

October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General


claims, she was sentenced to 5 years’ probation, 6 months’ home conﬁnement
with electronic monitoring, and ordered to pay $46,356 in restitution. The senior
contracting ofﬁcer, who approved the fraudulent invoices, resigned as a result of
this investigation.

HOTLINE: Employees Not Always Obtaining Competitive Bids
A review determined prosthetics employees at a medical center had not been
consistently obtaining competitive bids for health care equipment. The review
further determined that a contractor was not returning health care equipment
found to be beyond repair to the medical center. As a result, the chief of
prosthetics will implement procedures to increase accountability for all equipment
and to ensure its proper handling.

HOTLINE: Review Identiﬁes $3 Million Contracting Deﬁciency
A Hotline call resulted in a VHA review that found deﬁciencies in the manner in
which contracting ofﬁcials at a medical center handled some major construction
awards. The Acting Chief Logistics Ofﬁcer recommended a range of procedural
improvements and training to prevent recurrence of the problems.




                                              Procurement Practices        •      19

Semiannual Report to Congress   October 1, 2005 – March 31, 2006





20
October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General




                   Information Management


STRATEGIC GOAL #5: Assess information systems within VA to
  determine that they are adequately managed and protected to ensure
  information availability, integrity, authentication, and conﬁdentiality;
  used in a lawful and ethical manner; are cost effective; and meet the
  needs of the user/customer. Investigate fraud and other computer
  related crimes against the VA.
Along with the entire Federal government and society at
large, VA is becoming increasingly computer-based. The
centrality of information technology (IT) in VA’s future is
clearly recognized in VA’s 2003-2008 Strategic Plan, which
envisions the Internet as the primary communication vehicle                Dependable
VA has with its customers. Every month, more veterans
receive VA beneﬁts through electronic direct deposit rather
                                                                           information
than a paper check. Every day, veteran patient medical                      technology
records and treatment information are accessed and entered                 is central to
electronically at thousands of networked computer terminals.
VA maintains insurance, health, and burial records in millions of          VA’s future.
computer ﬁles. All VAMCs now provide patients with electronic
access to their Department of Defense health care records.
Annually, VA processes millions of transactions worth over
$40 billion, and these ﬁgures will continue to increase. The
cost and commitment to upgrade and integrate IT systems is
a substantial part of the VA budget and will continue to rise rapidly in the years
ahead.
OIG will continue close oversight of the extensive IT acquisition and
implementation activity, as this area involves
such monumental impact on overall VA
performance and mission accomplishment.
OIG reviews of VA IT management during
the reporting period include:

CAP REVIEWS: OIG Finds IT
Security Deﬁciences Persistent
Information security controls were deﬁcient
at 14 of the 23 medical facilities tested.
The CAP reviews found a wide range of
vulnerabilities in medical facilities systems
existed, which could lead to unauthorized
access, disclosure, modiﬁcation, destruction,
and misuse of automated information
systems resources. In order to safeguard
resources, OIG reported facilities needed
to improve controls over computer access,
contingency planning, risk assessments, security awareness training, background
investigations, and physical security to computer rooms and communication
closets. OIG identiﬁed similar deﬁciencies in CAP reviews conducted between
October 2004 through September 2005.




                                            Information Management         •    21

Semiannual Report to Congress               October 1, 2005 – March 31, 2006



AUDIT: Compliance Reviews Show Progress, Flaws
OIG prepared Federal Information Security Management Act (FISMA) compliance
audits on information systems used VA-wide, information security controls,
and security management at eight selected VA facilities during this reporting
period. The electronic security review involved conducting scans of wired and
wireless networks and reviewing electronic patient health information controls.
OIG determined that each facility had made progress in the areas of information
security. However, all eight facilities needed to improve physical, personnel, and
electronic security controls. OIG also found weaknesses in backup tape storage,
background investigations, veriﬁcation of prescriptions submitted by VAMCs to the
CMOPs for accuracy, background investigations, and periodic reinvestigation at
speciﬁed intervals.

AUDIT: Penetration Testing Reveals VBA Vulnerabilities
OIG used a contractor to perform penetration testing in October 2005, using
best business practices for information security. The resulting management
letter and contractor’s report are restricted because they contain conﬁdential
information exposing vulnerabilities of the VBA Beneﬁts Delivery Network. The
contractor was able to create a ﬁctitious user who generated and approved an
award, and the contractor was able to read sensitive data. The contractor made
recommendations for improvement and OIG is awaiting an implementation plan.

AUDIT: Study Finds IT Equipment Mismanagement
OIG evaluated anonymous allegations concerning missing and unaccounted-for
IT equipment, and possible unauthorized disclosure of sensitive patient and
employee information in violation of the Privacy Act of 1974. OIG substantiated
some allegations, but a wall-to-wall inventory and spot check did not substantiate
that signiﬁcant amounts of IT equipment were missing. OIG could not evaluate
the allegation regarding the unauthorized disclosure of sensitive information and
violations of the Privacy Act due to insufﬁcient records. To improve operations,
OIG made eight recommendations with which the Healthcare System Director
agreed, providing acceptable improvement plans.

HOTLINE: Veteran’s Missing Files Retrieved Electronically
Following a Hotline call, OIG arranged for a VHA review that determined a
veteran’s ﬁles were lost in transit between two medical centers. Current records
are electronic and available through the VA’s computerized records system. The
sending facility issued a nationwide alert to locate the records. In response to the
alert, several other facilities that had treated the veteran located ﬁles related to
his care. All these records were assembled at the veteran’s new medical center.




22    •    Information Management

October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General




                   Ofﬁce of Contract Review


The Ofﬁce of Contract Review (OCR) operates under an agreement with VA’s
Ofﬁce of Acquisition and Materiel Management to conduct contract preaward and
postaward reviews. OCR’s services are requested and paid for by VA.
The preaward reviews provide information to VA’s contracting ofﬁcers to assist
in price negotiations to ensure fair and reasonable contract prices, and identify
monetary beneﬁts that protect VA’s valuable resources. Preaward reviews
identiﬁed $73,771,987 in potential cost savings during this reporting period.
Thirteen preaward reviews of FSS and cost-per-test offers conducted at the
request of the National Acquisition Center recommended that contracting ofﬁcers
negotiate $69,819,428 in lower contract prices for FSS users because the vendors
were not offering their most favored customer prices to Government customers.
Another 14 preaward reviews, of proposals from VA afﬁliated medical schools
involving the acquisition of health care provider services were made at the
request of VHA contracting ofﬁcers. OCR recommended they negotiate reductions
of $3,952,118 to proposed contract costs to achieve fair and reasonable contract
prices.
OCR conducted postaward reviews to ensure compliance with contract terms and
conditions. These reviews resulted in VA recovering contract overcharges in this
reporting period totaling $17,620,576. Below are several examples of preaward
and postaward reviews from this reporting period.

REVIEW: Pharmaceutical Firm Repays $11.8 Million
OCR performed a review of a pharmaceutical manufacturer’s voluntary disclosure
and refund offer of overcharges on its FSS contract. OIG recommended that
the NAC contracting ofﬁcer issue a bill of collection to the manufacturer for
$11.8 million for contract overcharges. The overcharges are the result of the
manufacturer’s non-compliance with the price reduction clause in its FSS contract
and the failure to implement the requirements of Public Law 102-585, section
603. The manufacturer concurred in the overcharges and remitted $11.8 million
to VA’s Supply Fund.

REVIEW: Contract Saves Nearly $2.4 Million, Improves Care
An OCR review of an afﬁliate’s proposal to provide ophthalmology services
identiﬁed potential savings of nearly $2.4 million. The afﬁliate refused to
negotiate lower prices so the contracting ofﬁcer issued a competitive solicitation
for the services. Subsequently, the contracting ofﬁcer awarded a contract to
a local practice consisting of two Vietnam veterans who were well known and
respected locally for their expertise. The local practice bid 80 percent of the
Medicare rate versus the 105 percent bid by the afﬁliate. The difference resulted
in the $2.4 million in cost savings.

REVIEW: Pharmaceutical Manufacturer Repays $1.8 Million
OCR performed a review of corrected Federal Ceiling Prices (FCPs) resulting in the
collection of $1.8 million. Although the manufacturer voluntarily disclosed the
error which caused the overcharges, they failed to disclose any monetary impact
of the errant pricing. Subsequently, the company agreed to re-state the pricing
and calculated overcharges of $1,805,536. The review determined that the
revised methodology was correct, but that the overcharges should be $1,826,916.


                                           Ofﬁce of Contract Review        •    23

Semiannual Report to Congress               October 1, 2005 – March 31, 2006


The manufacturer concurred with this assessment and agreed to accept a bill
of collection to resolve the amount due. The contracting ofﬁcer issued a bill of
collection and the manufacturer remitted $1.8 million to VA’s Supply Fund.

REVIEW: VA to Receive $1.9 Million in False Claims Act Case
King Pharmaceuticals of Bristol, Tennessee, agreed to pay $124 million to
settle a case ﬁled under the qui tam provisions of the False Claims Act alleging
noncompliance with statutory mandates that establish Government pricing for
covered drugs. Based on a postaward review by OCR, VA will receive $1,921,875
from the settlement amount. This is in addition to the $953,626 reported in the
last semiannual report that King Pharmaceuticals paid VA in an administrative
settlement.

REVIEW: Pharmaceutical Manufacturer to Pay $921,161
OCR’s review of a pharmaceutical manufacturer’s voluntary disclosure and
refund offer of $598,730 in price reductions on its FSS contract disclosed that
the appropriate price reduction amount should be $594,377 with an additional
$326,784 for FCP overcharges. Based on the review, the manufacturer agreed to
pay $921,161 to resolve FSS contract overcharges.

REVIEW: Contracting Ofﬁcer Saves VHA $756,546
In response to recommendations in a preaward review by OCR, a contracting
ofﬁcer in VHA was able to negotiate better pricing on a contract for urology
services. The recognized savings of $756,546 represents 90 percent of the
recommended savings in the preaward report.


CONTRACT PREAWARD REVIEWS
  Report                                                                  Cost Savings
 Number/                                                     Potential  Sustained Through
Issue Date                 Report Title                    Cost Savings   Negotiations


 05-01889-3          Review of Federal Supply Schedule       $17,716,516
 10/13/05            Proposal Submitted by Hospira
                     Worldwide, Inc., Under Solicitation
                     Number M5-Q50A-03
 05-03103-4          Review of Proposal Submitted                $949,207
 10/13/05            by Indiana University, Under
                     Solicitation Number 583-43-05,
                     for Neurosurgery Services at the
                     Richard L. Roudebush VA Medical
                     Center
 05-02044-6          Review of Federal Supply Schedule           $284,832
 10/19/05            Proposal Submitted by Ortho
                     Biotech Products, L.P., Under
                     Solicitation Number M5-Q50A-03




24    •      Ofﬁce of Contract Review
October 1, 2005 – March 31, 2006              VA Ofﬁce of Inspector General





  Report                                                               Cost Savings
 Number/                                                  Potential  Sustained Through
Issue Date              Report Title                    Cost Savings   Negotiations
05-02809-10       Review of Proposal Submitted by            $231,164
10/24/05          University of Minnesota Physicians,
                  Under Solicitation Number
                  RFP 618-111-05, for Radiation
                  Oncologist and Physicist Services
                  at Minneapolis VA Medical Center
05-02597-12       Review of Proposal Submitted by            $838,180      $756,546
11/2/05           University of California - Irvine,
                  Under Solicitation Number 600-
                  108-05, for Urology Services at the
                  Long Beach VA Healthcare System
04-02718-23       Review of Federal Supply Schedule
11/3/05           Proposal Submitted by TAP
                  Pharmaceuticals, Incorporated,
                  Under Solicitation Number M5-
                  Q50A-03
05-01908-24       Review of Proposal Submitted               $185,550
11/3/05           by University of Pennsylvania,
                  Under Solicitation Number RFP
                  642-15-04, for Radiology Therapy
                  Services at the VA Medical Center
                  Philadelphia, PA
05-03048-28       Review of Proposal Submitted
11/16/05          by University of Miami, Under
                  Solicitation Number 546-48-05, for
                  Anatomic and Clinical Pathology
                  Services to VA Medical Center
                  Miami
05-02042-30       Review of Federal Supply Schedule        $4,030,734
11/23/05          Proposal Submitted by McKesson
                  Automation Systems, Inc.
05-03404-38       Review of Proposal Submitted by            $289,049
12/5/05           Duke University Medical Center
                  Under Solicitation Number RFP
                  246-05-01878 for Radiology
                  Services at VA Medical Center
                  Durham, NC
05-00277-43       Review of Federal Supply Schedule        $2,674,405
12/14/05          Proposal Submitted by 3M Medical
                  Division Under Solicitation Number
                  797-FSS-99-0025-R4




                                                  Ofﬁce of Contract Review       •    25

           Semiannual Report to Congress                 October 1, 2005 – March 31, 2006



  Report                                                                  Cost Savings
 Number/                                                     Potential  Sustained Through
Issue Date                Report Title                     Cost Savings   Negotiations
06-00175-46         Review of Proposal Submitted by
12/21/05            the University of California - Los
                    Angeles, Under Solicitation Number
                    600-013-05, for Cardiothoracic
                    Surgery and Perfusionist Services
                    at the VA Greater Los Angeles
                    Healthcare System
05-03169-48         Review of Proposal Submitted
12/27/05            by Medical College of Wisconsin,
                    Under Solicitation Number RFQ
                    69D-212-04, for Radiology
                    Oncology Physician and Physicist
                    Services for Clement J. Zablocki VA
                    Medical Center Milwaukee, WI
04-00457-44         Review of Federal Supply                    $781,070
12/29/05            Schedule Proposal Submitted
                    by Mallinckrodt, Inc., Division of
                    Tyco International, Ltd., Under
                    Solicitation Number M5-Q50A-03
05-03509-53         Review of Proposal Submitted by
1/12/06             University of Minnesota Physicians,
                    Under Solicitation Number 618-
                    65-06, for Ophthalmologic Surgery
                    and Retina Services for the
                    Minneapolis VA Medical Center
06-00529-54         Review of Proposal Submitted
1/12/06             by Vanderbilt University, Under
                    Solicitation Number RFP 626-30-
                    04, for Urology Services at VA
                    Medical Center Nashville, TN
05-01810-56         Review of Federal Supply Schedule         $5,768,220
1/13/06             Proposal Submitted by C.R. Bard,
                    Inc., Under Solicitation Number
                    RFP-797-FSS-99-0025-R4
04-02751-59         Review of Federal Supply Schedule           $169,891
1/18/06             Proposal Submitted by Johnson
                    & Johnson Healthcare Systems,
                    Inc., on Behalf of Ortho-McNeil
                    Pharmaceutical, Inc., Under
                    Solicitation Number M5-Q50A-03
05-01636-61         Review of Federal Supply Schedule           $162,420
1/23/06             Proposal Submitted by Beckman
                    Coulter, Inc., Under Solicitation
                    Number RFP-797-FSS-03-0001




 26    •     Ofﬁce of Contract Review

October 1, 2005 – March 31, 2006             VA Ofﬁce of Inspector General



  Report                                                              Cost Savings
 Number/                                                 Potential  Sustained Through
Issue Date             Report Title                    Cost Savings   Negotiations
04-01684-63      Review of Federal Supply Schedule          $950,815
1/27/06          Proposal Submitted by Watson
                 Pharma Inc., Under Solicitation
                 Number M5-Q50A-03
05-02230-84      Review of Federal Supply Schedule       $35,728,745
2/7/06           Proposal Submitted by Abbott
                 Laboratories Inc., Pharmaceutical
                 Products Division, Under
                 Solicitation Number M5-Q50A-03
06-00984-89      Review of Proposal Submitted by
2/13/06          the Medical University of South
                 Carolina, Under Solicitation
                 Number 247-0244-04, for Vascular
                 Surgery Services at the Ralph H.
                 Johnson VA Medical Center
06-01036-90      Review of Proposal Submitted by
2/14/06          University Physicians Healthcare
                 Under Solicitation Number 678-
                 0107-05 for Vascular Surgery
                 Services at Southern Arizona VA
                 Health Care System
06-00983-94      Review of Proposal Submitted
2/23/06          by Medical University of South
                 Carolina Under Solicitation
                 Number RFP 247-0378-04 for
                 Cardiothoracic Surgeon Services to
                 the Ralph H. Johnson VA Medical
                 Center
05-02760-104     Review of Federal Supply Schedule          $182,910
3/14/06          Proposal Submitted by Biogen Idec
                 US Corporation Under Solicitation
                 Number M5-Q50A-03
05-02092-112     Review of Federal Supply Schedule        $1,368,870
3/21/06          Proposal Submitted by Permobil,
                 Inc., Under Solicitation Number
                 RFP-797-652F-03-0001
06-00530-115     Review of Proposal Submitted             $1,459,409
3/27/06          by Vanderbilt University, Under
                 Solicitation Number 626-29-04, for
                 Orthopedic Physician Services at
                 VAMC Nashville
                 TOTAL                                   $73,771,987      $756,546




                                                    Ofﬁce of Contract Review    •       27

           Semiannual Report to Congress              October 1, 2005 – March 31, 2006




POSTAWARD CONTRACT REVIEWS
  Report
 Number/
Issue Date                Report Title                                  Recoveries


Postawards Requested by the NAC


05-02132-5	         Review of Schering Corporation’s
10/13/05	           Addition of Rebetol Item to Federal 

                    Supply Schedule Contract Number 

                    V797P-5777x 

06-00963-116	       Review of Schering Corporation’s
3/28/06	            Modiﬁcation to Add Products Under 

                    Federal Supply Schedule Contract 

                    Number V797P-5777x 




Contract Review Postawards in Response to Voluntary Disclosures
and Civil Fraud Actions

04-01284-7          Review of Sandoz Inc.’s Voluntary                      $11,843,286
10/25/05            Disclosure and Refund Offer Under
                    Federal Supply Schedule Contract
                    Number V797P-5314x
05-00259-27         Review of J&J Health Care                                $290,111
11/16/05            Systems, Inc.’s Voluntary
                    Disclosure and Refund Offer, on
                    Behalf of Codman & Shurtleff,
                    Inc., Concerning Federal Supply
                    Schedule Contract V797P-4456a
4-01258-36          Settlement Agreement King                               $1,921,875
12/2/05             Pharmaceuticals
99-00106-37         Public Law Pricing Review and                            $749,997
12/7/05             Refund Offer by Schering-Plough
                    Corporation Under Contract
                    Number V797P-5368x
05-01809-45         Review of Warrick Corporation’s                                  $781
12/21/05            Voluntary Disclosure and Refund
                    Offer Under Federal Supply
                    Schedule Contract Number V797P-
                    5653x




28     •     Ofﬁce of Contract Review
October 1, 2005 – March 31, 2006             VA Ofﬁce of Inspector General



  Report
 Number/
Issue Date             Report Title                                 Recoveries

06-00570-52      Veriﬁcation of Savient                                           $291
1/12/06          Pharmaceuticals, Inc.’s Contract
                 Overcharges on Federal Supply
                 Schedule Contract Number V797P-
                 5787x
05-03402-55      Review of Boehringer Ingleheim’s                       $1,826,916
1/13/06          Voluntary Disclosure Under Federal
                 Supply Schedule Contract Numbers
                 V797P-5429x and V797P-5705x
05-02441-57      Review of Schering Corporation’s                                 $111
1/13/06          Voluntary Disclosure and Refund
                 Offer Under Federal Supply
                 Schedule Contract Number V797P-
                 5777x
06-00366-62      Review of Ortho-McNeil                                     $921,162
1/24/06          Pharmaceutical, Inc.’s Self-
                 Disclosed Price Reductions Under
                 Federal Supply Schedule Contract
                 Number V797P-5438x
05-01316-83      Review of Philips Medical Systems’                          $66,046
2/7/06           Voluntary Disclosure and Refund
                 Offer Under Federal Supply
                 Schedule Contract Number V797P-
                 4328a
05-01327-111     Review of Reimbursement to Pﬁzer,
3/21/06          Inc. for Alleged Overpayment of
                 Credits to VA Facilities, Report
                 Number 05-01327-111
                 TOTAL                                                $17,620,576




                                                 Ofﬁce of Contract Review     •     29
Semiannual Report to Congress   October 1, 2005 – March 31, 2006





30
October 1, 2005 – March 31, 2006                 VA Ofﬁce of Inspector General





               Other Signiﬁcant Activities



George J. Opfer Conﬁrmed as
Inspector General
George J. Opfer was conﬁrmed as Inspector
General of the Department of Veterans
Affairs on November 10, 2005, and
appointed on November 17, 2005.
Mr. Opfer served previously as Deputy
Inspector General at the Department of
Labor, where he was responsible for day-
to-day operations aimed at reducing labor
racketeering and corruption in employee
beneﬁt plans, labor-management relations,
and internal union affairs. Prior to this
appointment, he served for 8 years as
Inspector General for the Federal Emergency
Management Agency. He began his Federal
career as a Special Agent in the U.S. Secret           Secretary Nicholson congratulates
Service, serving for 25 years and holding                  Inspector General Opfer
several Senior Executive Service positions.
He received his bachelor’s degree in
management from St. John’s University.

OIG Management Presentations
VHA’s Financial Quality Assurance Managers
In January 2006, Audit staff made a presentation on ﬁnancial audit issues at the
ﬁrst meeting of the VHA Networks’ Financial Quality Assurance Managers.

VA Workers’ Compensation Steering Committee
Audit staff made presentations at VA Workers’ Compensation Steering Committee
meetings that discussed past work and program ﬁndings. The committee was
established to prepare a Workers’ Compensation Program (WCP) strategic plan
and coordinate implementation actions VA-wide in response to OIG-related WCP
ﬁndings and recommendations for program improvement.

Veterans Health Administration Chief Logistics Ofﬁcers and Network
Managers Conference
In November 2005, Audit staff gave a presentation at the Indianapolis, IN,
conference on OIG perspective on VA procurement issues, including the OIG’s
strategic planning goals pertaining to procurement and the results of recent audits
and evaluations.

National Acquisition Center Industry Conference
Contract review staff made presentations on postaward reviews and voluntary
disclosures and refund offers to industry representatives.




                                     Other Signiﬁcant OIG Activities        •    31

Semiannual Report to Congress               October 1, 2005 – March 31, 2006



OIG Chicago Healthcare Inspections Director Named Associate Editor
The Director of OIG’s Chicago Ofﬁce of Healthcare Inspections was selected
as Associate Editor for the American Association of Spinal Cord Injury Nurses’
(AASCIN) Editorial Board, which publishes the ofﬁcial journal of AASCIN journal,
SCI Nursing. The quarterly journal is distributed to AASCIN members, schools of
nursing, VA medical libraries, and rehabilitation facilities.

Awards
President’s Council on Integrity and Efﬁciency (PCIE) 2005 Awards
The Alexander Hamilton Award, PCIE’s highest award: VBA state variance review.
PCIE Awards for Excellence – Audit:
• Review of VA implementation of the Zegato Electronic Travel Service.
• Follow-up Audit of the VA WCP Costs.
• Review of VHA management of outpatient scheduling procedures.
PCIE Awards for Excellence – Investigations:
• Investigative work leading to prosecution and conviction of a medical
professional who harmed cancer victims by including ineligible patients in
research studies.
• Identifying and prosecuting 52 members of drug trafﬁcking group selling
controlled substances to patients and employees of the VA Medical Center
Hampton, Virginia.
PCIE Awards for Excellence – Multiple Disciplines:
• Efforts to improve the VA Core Financial and Logistics System (CoreFLS) and
related patient care and administrative issues at VAMC Bay Pines.
• Beneﬁt review of the VA Regional Ofﬁce in San Juan, Puerto Rico, resulting in
savings and cost avoidance of approximately $74 million.
PCIE Award for Excellence – Administrative Support:
• Succession planning and other human capital initiatives throughout the
Inspector General community.
PCIE Award for Excellence – Employee Protections:
• Efforts to improve the safety of employees working in health care facilities as
part of the VHA Management of Violent Patient Behavior Project.




32    •    Other Signiﬁcant OIG Activities

October 1, 2005 – March 31, 2006             VA Ofﬁce of Inspector General



                                 APPENDIX A

                    DEPARTMENT OF VETERANS AFFAIRS
                      OFFICE OF INSPECTOR GENERAL
                          REVIEWS BY OIG STAFF

  Report                                               Funds Recommended
 Number/                                                  for Better Use Questioned
Issue Date               Report Title                   OIG      Management       Costs

COMBINED ASSESSMENT PROGRAM REVIEWS
05-00709-1    Combined Assessment Program
10/7/05       Review of the VA Medical Center,
              San Juan, PR
04-02331-17   Combined Assessment Program           $548,361      $548,361
11/2/05       Review of the Northern Arizona VA
              Health Care System, Prescott, AZ
05-02531-18   Combined Assessment Program             $5,906        $5,906
11/3/05       Review of the VA Regional Ofﬁce,
              Honolulu, HI
05-02813-32   Combined Assessment Program            $10,087       $10,087
12/6/05       Review of the VA Medical Center,
              West Palm Beach, FL
05-02242-39   Combined Assessment Program         $2,831,906    $2,831,906
12/6/05       Review of the VA Regional Ofﬁce,
              San Juan, PR
05-02813-40   Combined Assessment Program
12/12/05      Review of the VA Medical Center,
              Fayetteville, NC
06-00012-49   Combined Assessment Program
1/5/06        Review of the VA Medical Center,
              Lexington, KY
05-02361-50   Combined Assessment Program           $103,443      $103,443
1/6/06        Review of the San Francisco VA
              Medical Center, San Francisco, CA
05-02926-64   Combined Assessment Program           $111,618      $111,618
1/30/06       Review of the VA Regional Ofﬁce,
              Portland, OR
05-02298-65   Combined Assessment Program         $1,028,385    $1,028,385
1/30/06       Review of the VA Tennessee Valley
              Healthcare System, Nashville, TN




                                                              Appendixes      •    33
             Semiannual Report to Congress                October 1, 2005 – March 31, 2006


  Report                                                  Funds Recommended
 Number/                                                      for Better Use        Questioned
Issue Date                 Report Title                     OIG        Management     Costs
05-00734-67       Combined Assessment Program         $1,729,501   $1,729,501       $194,837
1/31/06           Review of the VA Boston
                  Healthcare System, Boston, MA
05-01607-68       Combined Assessment Program         $1,035,337   $1,035,337
1/31/06           Review of the Providence VA
                  Medical Center, Providence, RI
05-01654-69       Combined Assessment Program         $1,017,355   $1,017,355
2/1/06            Review of the VA Medical Center,
                  Kansas City, MO
05-03384-70       Combined Assessment Program
2/2/06            Review of the VA Medical Center,
                  Asheville, NC
05-01229-71       Combined Assessment Program         $1,933,577   $1,933,577
2/2/06            Review of the VA Regional Ofﬁce,
                  Philadelphia, PA
05-01661-72       Combined Assessment Program          $312,581      $312,581
2/2/06            Review of the Oklahoma City VA
                  Medical Center, Oklahoma City, OK
05-03389-82       Combined Assessment Program         $1,594,680   $1,594,680
2/8/06            Review of the VA Regional Ofﬁce,
                  Roanoke, VA
05-01608-85       Combined Assessment Program         $1,307,466   $1,307,466
2/8/06            Review of the Togus VA Medical
                  Center, Togus, ME
06-00025-86       Combined Assessment Program          $782,498      $782,498
2/15/06           Review of the Spokane VA Medical
                  Center, Spokane, WA
05-02924-87       Combined Assessment Program         $4,223,712   $4,223,712
2/15/06           Review of the VA Regional Ofﬁce,
                  Oakland, CA
05-03126-92       Combined Assessment Program
2/17/06           Review of the Fayetteville VA
                  Medical Center, Fayetteville, AR
05-03486-93       Combined Assessment Program          $132,776      $132,776
2/21/06           Review of the VA Medical Center,
                  Marion, IL
05-01514-96       Combined Assessment Program          $158,027      $158,027
3/3/06            Review of the VA Medical Center,
                  White River Junction, VT




34    •      Appendix

October 1, 2005 – March 31, 2006                    VA Ofﬁce of Inspector General


  Report                                                 Funds Recommended
 Number/                                                     for Better Use        Questioned
Issue Date               Report Title                      OIG        Management     Costs
 05-02502-99    Combined Assessment Program            $296,596      $296,596
 3/7/06         Review of the VA Medical Center,
                Lebanon, PA
 05-03219-103   Combined Assessment Program
 3/14/06        Review of the North Chicago VA
                Medical Center, North Chicago, IL
 06-00095-106   Combined Assessment Program          $1,139, 345   $1,139, 345
 3/21/06        Review of the VA Regional Ofﬁce,
                Boston, MA
 05-03220-108   Combined Assessment Program            $284,676      $284,676
 3/22/06        Review of the VA Illiana Health
                Care System Danville, IL
 05-01508-114   Combined Assessment Program             $24,186       $24,186
 3/27/06        Review of the Edith Nourse Rogers
                Memorial Veterans Hospital
                Bedford, MA
 05-01941-117   Combined Assessment Program             $47,345       $47,345
 3/29/06        Review of the VA Medical Center,
                Butler, PA
 06-00026-119   Combined Assessment Program            $349,703      $349,703
 3/31/06        Review of the VA Regional Ofﬁce,
                San Diego, CA
 05-03277-121   Combined Program Assessment            $107,617      $107,617
 3/31/06        Review of the Veterans Health
                Administration Activities at the
                Robert J. Dole VA Medical Center,
                Wichita, KS
 06-01753-122   Summary Report of Combined
 3/31/06        Assessment Program Reviews at
                Veterans Beneﬁts Administration
                Regional Ofﬁces, October 2004
                through September 2005
 06-01754-123   Summary Report of Combined
 3/31/06        Assessment Program Reviews at
                Veterans Health Administration
                Medical Facilities, October 2004
                through September 2005




                                                                        Appendix      •   35

             Semiannual Report to Congress              October 1, 2005 – March 31, 2006


  Report                                                Funds Recommended
 Number/                                                    for Better Use        Questioned
Issue Date                 Report Title                   OIG        Management     Costs
JOINT REVIEWS


06-00480-26        Major Management Challenges
11/15/05           Fiscal Year 2005


INTERNAL AUDITS
05-00055-8        Management Letter, Fiscal Year
10/20/05          2005 Federal Information Security
                  Management Act (FISMA) Audit of
                  the Great Lakes Consolidated Mail
                  Outpatient Pharmacy
05-00055-9        Management Letter, Fiscal
10/20/05          Year 2005 Federal Information
                  Security Management Act (FISMA)
                  Audit of the Veterans Beneﬁts
                  Administration Regional Ofﬁce,
                  Chicago, IL
05-00055-11       Management Letter, Fiscal Year
10/24/05          2005 Federal Information Security
                  Management Act (FISMA) Audit
                  of the Philadelphia Information
                  Technology Center
05-00055-16       Management Letter, Fiscal Year
11/1/05           2005 Federal Information Security
                  Management Act (FISMA) Audit
                  of the Austin Automation Center
                  (AAC)
05-00055-20       Management Letter, Fiscal Year
11/2/05           2005 Federal Information Security
                  Management Act (FISMA) Audit of
                  the Financial Services Center (FSC)
04-01901-19       Audit of Medical Oxygen Supply
11/3/05           Management Practices VA Medical
                  Center, San Juan, PR
05-00055-22       Management Letter, Fiscal Year
11/3/05           2005 Federal Information Security
                  Management Act (FISMA) Audit of
                  the Tennessee Valley Healthcare
                  System (TVHS)




36    •      Appendix

October 1, 2005 – March 31, 2006                    VA Ofﬁce of Inspector General


  Report                                                 Funds Recommended
 Number/                                                     for Better Use        Questioned
Issue Date             Report Title                        OIG        Management     Costs
 05-01096-21   Report of the Audit of the
 11/15/05      Department of Veterans Affairs
               Consolidated Financial Statements
               for Fiscal Years 2005 and 2004
 05-01096-29   Report of the Audit of the
 11/18/05      Department of Veterans Affairs
               Special Purpose Financial
               Statements for Fiscal Years 2005
               and 2004
 05-01096-35   Department of Veterans Affairs
 12/2/05       Fiscal Year 2005 Agreed-
               Upon Procedures for Federal
               Intragovernmental Activity and
               Balances
 05-00055-33   Management Letter, Fiscal Year
 12/5/05       2005 Federal Information Security
               Management Act (FISMA) Audit of
               the Mid-South Consolidated Mail
               Outpatient Pharmacy (CMOP)
 05-00055-34   Management Letter, Fiscal Year
 12/5/05       2005 Federal Information Security
               Management Act (FISMA) Audit
               Network Operations Center (NOC)
               and Security Operations Center
               (SOC)
 06-00763-66   Attestation of the Department of
 1/26/06       Veterans Affairs Fiscal Year 2005
               Detailed Accounting Submission to
               the Ofﬁce of National Drug Control
               Policy
 05-03177-95   Evaluation of Time and Attendance
 3/1/06        of a Part-Time Physician at the
               Malcolm Randall VA Medical Center,
               Gainesville, FL
 05-00123-97   Wireless Network Vulnerability
 3/6/06        Assessment at the VA Medical
               Center, Dallas, TX
 05-00123-98   Wireless Network Vulnerability
 3/6/06        Assessment at the VA Medical
               Center, San Antonio, TX




                                                                       Appendix       •   37

             Semiannual Report to Congress               October 1, 2005 – March 31, 2006


  Report                                                 Funds Recommended
 Number/                                                     for Better Use        Questioned
Issue Date                 Report Title                    OIG        Management     Costs
02-03372-101      Audit of the VA Homeless Veterans                                 $714,131
3/8/06            Transitional Housing Grant to
                  Tampa-Hillsborough Action Plan,
                  Inc., Tampa, FL
05-00321-105      Evaluation of Veterans’ Access to
3/20/06           Long-Term Nursing Home Care,
                  Washington, DC
05-03037-107      Audit of Allegations Regarding
3/21/06           Payments for Fee Basis Care
                  in Veterans Integrated Service
                  Network 2, Albany, NY
05-03271-113      Evaluation of Time and Attendance
3/23/06           of a Full-Time Physician at the
                  John J. Pershing VA Medical Center,
                  Poplar Bluff, MO
06-00785-120      Audit of Alleged Mismanagement of     $521,591     $507,654
3/31/06           VA’s Permanent Change of Station
                  Travel Program, Washington, DC


OTHER OFFICE OF AUDIT REVIEWS


05-01542-2       Management Letter, Department of
10/11/05         Veterans Affairs Fiscal Year 2004
                 Special Disabilities Capacity Report
04-00856-31      Evaluation of Alleged Information
12/2/05          Technology Equipment
                 Mismanagement and Privacy Act
                 Violations at the VA Loma Linda
                 Healthcare System
05-00017-91      Evaluation of Financial Management
2/17/06          Activities at the VA Riverside
                 National Cemetery


HEALTHCARE INSPECTIONS

05-02085-13       Healthcare Inspection, Clinical
11/1/05           Laboratory Issues Cheyenne VA
                  Medical Center, Cheyenne, WY




38    •      Appendix
October 1, 2005 – March 31, 2006                     VA Ofﬁce of Inspector General


  Report                                                  Funds Recommended
 Number/                                                      for Better Use        Questioned
Issue Date              Report Title                        OIG        Management     Costs
 04-00330-15   Healthcare Inspection, Evaluation
 11/1/05       of Management of Moderate
               Sedation in Veterans Health
               Administration Facilities
 04-02321-14   Healthcare Inspection, Alleged
 11/2/05       Lack of Resident Supervision in
               Orthopedics Service Dallas VA
               Medical Center, Dallas, TX
 04-01646-25   Healthcare Inspection,
 11/3/05       Management of Bulk Oxygen
               Systems
 05-01838-41   Healthcare Inspection, Patient
 12/7/05       Care Issues in Mental Health
               William Jennings Bryan Dorn VA
               Medical Center, Columbia, SC
 05-02203-42   Healthcare Inspection, Quality of
 12/14/05      Care Issues, Bay Pines VA Medical
               Center, Bay Pines, FL
 05-02589-47   Healthcare Inspection, Quality of
 12/27/05      Care Issues in the Dialysis Unit,
               Bay Pines VA Medical Center, Bay
               Pines, FL
 04-03266-51   Emergency Preparedness in
 1/5/06        Veterans Health Administration
               Facilities
 04-03313-58   Healthcare Inspection, Review of
 1/20/06       Alleged Institutional Mistreatment,
               Department of Veterans Affairs
               Medical Centers, Iowa City and
               Knoxville, Iowa
 05-01372-60   Healthcare Inspection, Alleged
 1/25/06       Suspicious Death, Delay in
               Surgery, and Failure to Obtain
               Preoperative Cardiac Workup,
               Harry S. Truman Memorial
               Veterans’ Hospital, Columbia, MO
 05-02418-75   Healthcare Inspection,
 2/2/06        Environmental, Safety, Patient
               Privacy, and Stafﬁng Issues
               Edward Hines, Jr. VA Hospital
               Hines, IL




                                                                        Appendix       •   39

             Semiannual Report to Congress             October 1, 2005 – March 31, 2006


  Report                                               Funds Recommended
 Number/                                                   for Better Use        Questioned
Issue Date                 Report Title                  OIG        Management     Costs
05-00784-76       Healthcare Inspection, Colorectal
2/2/06            Cancer Detection and Management
                  in Veterans Health Administration
                  Facilities
05-02023-73       Alleged Failure to Supervise
2/3/06            Hand Surgery Fellows VA Boston
                  Healthcare System, Boston, MA
05-03053-77       Healthcare Inspection, Quality of
2/3/06            Care Issues in the Traumatic Brain
                  Injury Unit, James A. Haley VA
                  Medical Center, Tampa, FL
04-03402-81       Healthcare Inspection, Evaluation
2/6/06            of Environment of Care in Veterans
                  Health Administration Facilities
04-01639-74       Healthcare Inspection, Quality
2/8/06            of Care and Management Issues
                  Kansas City VA Medical Center,
                  Kansas City, MO
05-03098-88       Healthcare Inspection, Alleged
2/15/06           VistA System Malfunction Olin E.
                  Teague Veterans Center, Temple,
                  TX
05-02925-100      Resident Supervision in the
3/7/06            Operating Room, Birmingham VA
                  Medical Center, Birmingham, AL
05-01552-102      Healthcare Inspection, Operating
3/9/06            Room Nurses Scope of Practice
                  Issues Edward Hines, Jr. VA
                  Hospital, Hines, IL
05-00295-109      Healthcare Inspection,
3/22/06           Management of Patients with
                  Pressure Ulcers in Veterans
                  Health Administration Facilities,
                  Washington, DC
03-00494-110      Healthcare Inspection, Evaluation
3/22/06           of the Management of Patients
                  with Feeding and Swallowing
                  Problems in Veterans Health
                  Administration Facilities,
                  Washington, DC




40    •      Appendix

October 1, 2005 – March 31, 2006                     VA Ofﬁce of Inspector General


  Report                                                  Funds Recommended
 Number/                                                      for Better Use        Questioned
Issue Date             Report Title                         OIG        Management     Costs

ADMINISTRATIVE INVESTIGATIONS
 04-02823-79   Administrative Investigation
 2/6/06        Alleged Reprisal of a Contract
               Employee by the Contractor,
               Asheville, NC
 06-00209-80   Administrative Investigation,
 2/6/06        Financial Irregularities VA Medical
               Center, Washington, DC
               TOTAL                                  $21,638,275   $21,624,338        $908,968




                                                                        Appendix       •   41

Semiannual Report to Congress   October 1, 2005 – March 31, 2006





42
October 1, 2005 – March 31, 2006                             VA Ofﬁce of Inspector General



                                              APPENDIX B

             STATUS OF OIG REPORTS UNIMPLEMENTED OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management
decisions and implementation of OIG recommendations. It states a Federal agency shall
complete ﬁnal action on each recommendation in an OIG report within 12 months after the
report is ﬁnalized. If the agency fails to complete ﬁnal action within this period, OIG will
identify the matter in its semiannual report to Congress until the ﬁnal action is completed.
This appendix summarizes the status of OIG unimplemented reports and recommendations.

OIG requires that management ofﬁcials provide documentation showing the completion
of corrective actions on OIG recommendations. In turn, OIG reviews status reports
submitted by management ofﬁcials to assess the adequacy and timeliness of agreed-upon
implementation actions. When a status report adequately documents corrective actions,
OIG closes the recommendation. If the actions do not implement the recommendation, OIG
continues to monitor progress.

The following chart lists the total number of unimplemented OIG reports and
recommendations by organization. It also provides the total number of unimplemented
reports and recommendations issued over 1 year ago (March 31, 2005, and earlier).

                        Unimplemented OIG Reports and Recommendations

   VA                                                                          Issued 3/31/05
                                    Total
  Ofﬁce                                                                           and Earlier

                       Reports            Recommendations               Reports            Recommendations

   VHA                    77                     485                       13                       67

   VBA                    12                      60                       2                            5

   OI&T                    3                      25                       2                        24

  OHRA                     1                      12                       1                        12

    OM                     6                      27                       2                            9

   OPPP                    1                      3                        1                            3

  Totals                100*                     612                     21**                      120


* There are 95 total unimplemented reports, but 2 reports have actions for two or more ofﬁces.
** There are 17 total unimplemented reports over 1-year old, but 1 report has action for four ofﬁces.


Ofﬁce   of   Information and Technology (OI&T)

Ofﬁce   of   Human Resources and Administration (OHRA)

Ofﬁce   of   Management (OM)

Ofﬁce   of   Policy, Planning, and Preparedness (OPPP)


OIG is particularly concerned with ﬁve reports on VHA operations (three issued in 2002
and two in 2003) with recommendations that still remain open. The following information
provides a summary of reports over 1 year old with open recommendations.

                                                                                   Appendixes               •   43

           Semiannual Report to Congress             October 1, 2005 – March 31, 2006




Veterans Beneﬁts Administration
Unimplemented Recommendations and Status
Report: Evaluation of Veterans Beneﬁts Administration Vocational Rehabilitation and
Employment (VR&E) Contracts, 04-01271-74, 2/1/05

OIG completed an evaluation of the award and administration of VBA VR&E contracts. OIG
conducted the evaluation at the request of the VR&E Task Force, which was concerned
about the adequacy of the contracting process and pricing information. The purposes of
the evaluation were to determine the reasonableness of the prices paid, and to identify
opportunities to enhance contract administration and better utilize VA resources.

Status: As of March 31, 2006, three of seven recommendations remain unimplemented.
VBA continues to work on a process to ensure that adequate internal controls are in place to
monitor the contract payment process and anticipates completion of required action early in
FY 2007.

Veterans Health Administration
Unimplemented Recommendations and Status
Report: Healthcare Inspection, Evaluation of VHA’s Contract Community Nursing Home
(CNH) Program, 0200972-44, 12/31/02

At the request of Senator Christopher S. Bond, OIG conducted an inspection of the
progress of VHA’s efforts to strengthen oversight and control procedures, and to determine
whether veterans residing in community nursing homes were vulnerable to abuse,
neglect, or ﬁnancial exploitation. OIG identiﬁed the need to strengthen CNH oversight and
control practices as far back as January 1994, and reported that similar conditions and
vulnerabilities continued to exist in a Combined Assessment Program Summary Report
dated October 30, 2001.

Status: As of March 31, 2006, 1 of 11 recommendations remains unimplemented pending
actions by the VHA Chief Consultant for Geriatrics and Extended Care (G&EC). That
recommendation states that the Under Secretary for Health needs to ensure that VHA
medical facility managers devote the necessary resources to adequately administer the CNH
program. G&EC will analyze and submit ﬁndings of the web-based CNH Certiﬁcation Report
to the Deputy Under Secretary for Health for Operations and Management.

                                       **********
Report: Audit of VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03

At the request of the Secretary of Veterans Affairs, OIG audited VHA’s management of
part-time physician time and attendance, physician productivity in meeting employment
obligations, and physician stafﬁng requirements. The audit objectives were to determine if
(1) timekeeping and other management controls were effective in ensuring that part-time
physicians worked the hours required by their VA appointments; and (2) VHA used effective
procedures to align physician stafﬁng with workload requirements.




44     •     Appendixes

October 1, 2005 – March 31, 2006                  VA Ofﬁce of Inspector General




Status: As of March 31, 2006, 9 of 17 recommendations remain unimplemented
pending actions by a number of VHA staff ofﬁces. VHA explored ways to create a time
and attendance system that meets the needs of VA in providing patient care while at the
same time allowing ﬂexibility in scheduling for those part-time physicians who need such
accommodations. All relevant parties agreed upon the concept of eliminating core hours
for those part-time physicians on alternative work schedules. VA Handbooks relating to
stafﬁng, pay administration, and hours of duty and leave document the new policy. OIG
expects release of the new handbooks shortly. Five medical centers are testing the new
policies together with new supporting software changes to the Enhanced Time & Attendance
System. Concurrently, the Employee Education System developed a training module to
assist the ﬁeld when national implementation of the new policies becomes mandatory.

VA developed a proposed policy to meet this stafﬁng requirement. It relates stafﬁng
levels and staff mix to patient outcomes and other performance measures. This proposed
policy requires all VHA facilities to develop written stafﬁng plans for each distinct unit of
patient care or health service. The directive’s requirements are to be used in conjunction
with the requirements of appropriate accrediting bodies, such as the Joint Commission on
Accreditation of Healthcare Organizations. Currently, there are no information management
systems capable of supporting nationwide standardized stafﬁng plans for health care
providers in varied care settings. VHA briefed OIG in February 2006 on the program points
of its Decision Support System Physician Labor Mapping Directive, now in the concurrence
phase, which will serve as the foundation for a national specialty physician database. VHA
expects this database to ensure standardized labor mapping and improve accuracy of cost
determination. It should be fully operational in calendar year 2006 (with completion in
FY 2009), and support measuring productivity and stafﬁng for the remaining physician
specialties.

OIG continues to work with VHA to review VHA’s proposed policy due to concerns over
compliance with the intent of Public Law 107-135, The Department of Veterans Affairs
Health Care Programs Enhancement Act of 2001, particularly with respect to national
standards for nurse stafﬁng, the length of time VHA projects to establish a complete set of
stafﬁng standards, and questions over the need to develop new data systems versus using
existing data resources in a consistent manner.

                                        **********
Report: Healthcare Inspection, Evaluation of VHA Homemaker and Home Health Aide
Program, 02-00124-48, 12/18/03

OIG conducted an evaluation of VHA’s Homemaker and Home Health Aide (H/HHA) Program
to determine whether H/HHA programs at VA medical facilities were in compliance with VHA
policy and whether H/HHA services provided to patients were clinically appropriate,
cost-effective, and met customer expectations.

Status: As of March 31, 2006, two of four recommendations remain unimplemented
pending actions by VHA Chief G&EC. OIG will close both recommendations upon VHA
ﬁnalizing the Home Health Care Program Administration handbook and implementing a
Geriatrics and Extended Care referral form. The VHA program ofﬁce has not provided a
planned completion date to issue the handbook that was ﬁrst drafted in January 2004, and
the referral form is on hold at most sites.

                                        **********




                                                                   Appendixes        •    45
            Semiannual Report to Congress            October 1, 2005 – March 31, 2006




Report: Healthcare Inspection, VHA’s Community Residential Care (CRC) Program, 03-
00391-138, 5/3/04

OIG conducted an evaluation of VHA’s Community Residential Care (CRC) Program. OIG
conducted the evaluation to determine whether: VA medical facilities inspect their CRC
homes in accordance with VA policy; veterans are appropriately assessed, placed, and
followed up in CRC homes; CRC caregivers are qualiﬁed to meet veterans’ needs; and
incompetent veterans’ care is coordinated with VBA.

Status: As of March 31, 2006, 4 of 11 recommendations remain unimplemented pending
VHA actions. The Under Secretary for Health needs to assure that appropriate VAMC CRC
program managers, inspection team members, or clinicians:
1.      	Conduct annual ﬁre safety inspections of CRC homes.
2. 	     Give CRC caregivers instructions for managing patient care needs at the time
        of placement, and after hospitalizations and clinic visits, and document these
        discussions in the medical records.
3. 	    Document that patients and families sign statements of agreement when accepting
        referrals to CRC services and programs not approved by VA.
4. 	    Conduct and document annual discussions with VBA ﬁeld examination supervisors
        regarding incompetent CRC patients, and take actions as appropriate.

Three of the four recommendations required regulatory changes that are being drafted for
Title 38, Code of Federal Regulations. VHA issued Handbook 1140.1 in March 2005, but did
not address the last recommendation involving discussions with VBA. The next handbook
revision will address all recommendations.

                                       **********
Report: Healthcare Inspection, Evaluation of Nurse Stafﬁng in VHA Facilities,
03-00079-183, 8/13/04

OIG evaluated the efforts to manage nursing resources in VHA medical facilities in light of
the national nursing shortage. The purposes of OIG’s evaluation were to determine whether
VHA facility managers: (1) effectively allocated and deployed nursing resources, (2)
monitored the impact of stafﬁng levels on the quality of care provided to patients, and (3)
applied effective recruitment, retention, and deployment strategies to maintain a stable VHA
nursing work force. OIG also solicited employee perceptions on other issues that may affect
job satisfaction.

As of August 2003, VA employed more than 36,000 Registered Nurse FTE. In a 1989
report, OIG concluded that: (1) VHA managers needed to better monitor their nurse stafﬁng
needs, (2) stafﬁng decisions were based on inaccurate data, (3) wide variations occurred
among facilities, and (4) VHA did not have a standardized methodology to determine the
appropriate number and mix of nursing personnel. Public Law 107-135, which became
effective January 1, 2002, required the VA to establish a nationwide VHA stafﬁng policy
to ensure the provision of appropriate high-quality care and services. At the time of this
review, VHA had not mandated the use of a national nurse stafﬁng methodology.

Status: As of September 30, 2005, 11 of 14 recommendations remain unimplemented
pending VHA actions. VHA actions that address the stafﬁng issue in the above OIG Audit of
VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03, will also address




 46 	   •     Appendixes

October 1, 2005 – March 31, 2006                   VA Ofﬁce of Inspector General




unimplemented recommendations in this report. In 2002, VHA approved funding for the VA
Nursing Outcomes Database project to collect data related to nurse-sensitive indicators of
quality and integrated it into a national database, with a planned completion date the end
of 2009. The Ofﬁce of Nursing Services created a task force in FY 2003 that includes an
assessment and analysis of current trends and structures that deﬁne nursing performance.
Drafts of four proposed career paths continue to be reﬁned and a potential additional grade
will need to be addressed legislatively.

A VA nurse outcomes report is being prepared that looks at the 5-year outcomes study of
nurses who have participated in VHA Employee Incentive Scholarship Program/National
Nurse Education Initiative programs. Scholarships and tuition reimbursement are strong
recruitment and retention tools and this report is designed to analyze VHA outcomes. The
ﬁnal report is expected in 2006. VAMCs have been manually collecting overtime data
for the third and fourth quarters of FY 2005. A ﬁnal report will be prepared in FY 2006.
The National Center for Organizational Development has analyzed data from the most
recent VHA all-employee surveys to that of the all-employee survey results from the 10
facilities originally surveyed by OIG. Preliminary results indicate that there is no statistical
signiﬁcance difference between the 10 facilities and the universe surveyed. Action is held in
abeyance pending review of the overtime data currently being manually collected.

                                         **********
Report: Evaluation of Selected Medical Care Collections Fund First Party Billings and
Collections, 03-00940-38, 12/1/04

The purpose of the evaluation was to determine the appropriateness of Medical Care
Collections Fund (MCCF) ﬁrst party billings and collections for certain veterans receiving
C&P beneﬁts. Current Federal law requires VA to collect fees (copayments) for medical care
and medications provided certain veterans for nonservice-connected conditions. Veterans
receiving compensation for service-connected disabilities rated 50 percent or higher or
VA pensions based on being totally disabled with low income are generally exempt from
copayments and should not be billed. OIG’s evaluation focused on the appropriateness
of debts, for veterans receiving compensation for service-connected disabilities rated 50
percent or higher or VA pensions, which VHA referred to the Debt Management Center, St.
Paul, MN for collection.

Status: As of March 31, 2006, two of four recommendations remain unimplemented
pending development of VETSNET.

                                         **********
Report: Combined Assessment Program Review of the VA Eastern Colorado Health Care
System, Denver, Colorado, 04-01805-55, 12/27/04

The OIG review evaluated selected operations, focusing on patient care administration,
quality management, and ﬁnancial and administrative controls. The CAP review covered
16 operational activities. The system complied with selected standards in four areas. The
remaining 12 areas resulted in recommendations or suggestions for improvement.

Status: As of March 31, 2006, one of nine recommendations remains unimplemented.
OIG recommended the Medical Center Director take action to ensure that infection control,
safety, and cleanliness standards are maintained by assessing the system’s vulnerability to
aspergillus contamination and infection, continuing efforts to rigorously clean and maintain



                                                                     Appendixes         •    47

           Semiannual Report to Congress              October 1, 2005 – March 31, 2006




the environment, determining the steps needed to prevent future aspergillus outbreaks, and
diverting immunocompromised patients until clearance is received from the Under Secretary
of Health.

The recommendation remains unimplemented pending installation of a forced air ducted
ventilation system in the subbasement to exhaust air outside the facility; and pending
additional dispensers being added to meet the requirements of VHA Directive 2005-002,
“Required Hand Hygiene Practices,” issued January 13, 2005.

                                        **********
Report: Evaluation of Sole-Source Contracts with Medical Schools and Other Afﬁliated
Institutions, 05-01318-85, 2/16/05

Since the beginning of FY 2000, OIG has been conducting preaward reviews of proposals for
contracts to be awarded on a sole-source basis to VA afﬁliates. These reviews, combined
with postaward reviews, CAP reviews, and interactions with VA personnel, identiﬁed
numerous issues that need to be addressed. This report advised of OIG’s collective ﬁndings
and made recommendations for improvement in the procurement of health care resources
in order to ensure quality health care is provided to veteran patients and to protect the
interests of the Government.

Status: As of March 31, 2006, 32 of 35 recommendations remain unimplemented pending
the publication of VHA Health Care Resources Contracting – Buying Directive.

                                        **********
Report: Healthcare Inspection, Emergency Decontamination Preparedness, VA Salt Lake
City Health Care System, Salt Lake City, Utah, 05-00290-78, 2/8/05

OIG reviewed emergency decontamination preparedness at the VA Salt Lake City Health
Care System, Salt Lake City, Utah. Congressman Lane Evans requested that OIG review
the decontamination program at the medical center, including conducting an inventory
of decontamination equipment and determining whether training requirements had been
established. He also requested a general review of decontamination capabilities at VA
medical centers with decontamination programs.

Subsequent to the events of September 11, 2001, Public Law 107-188, dated June 12,
2002, Public Health Security and Bioterrorism Preparedness and Response Act of 2002, and
Public Law 107-287, dated November 7, 2002, Department of Veterans Affairs Emergency
Preparedness Act of 2002, clariﬁed VA’s role in preventing, preparing for, and responding
to bioterrorism and other public health emergencies. These laws require that VA provide
decontamination and personal protection equipment at VHA medical centers and train
employees in the use of such equipment.

Status: As of March 31, 2006, one of two recommendations remains unimplemented.
The VISN Director needs to ensure that the Health Care System Director conducts and
reports decontamination training and exercises to Central Ofﬁce, as required, after
receiving decontamination equipment. This recommendation is pending completion of
decontamination training and exercises, and reporting the completion of this training to
Central Ofﬁce.

                                        **********



48     •     Appendixes
October 1, 2005 – March 31, 2006                  VA Ofﬁce of Inspector General




Report: Combined Assessment Program Review of the Minneapolis VA Medical Center,
Minneapolis, Minnesota, 04-03408-113, 3/25/05

OIG conducted a CAP review of the Minneapolis VA Medical Center, Minneapolis, Minnesota.
The purpose of the review was to evaluate selected operations, focusing on patient care
administration, quality management (QM), and ﬁnancial and administrative controls. This
CAP review focused on 16 areas. There were no concerns identiﬁed in seven areas. The
remaining nine areas resulted in recommendations for improvement.

Status: As of March 31, 2006, 2 of 25 recommendations remain unimplemented. OIG will
close these recommendations upon receipt of documentation showing reduction of excess
medical supply inventory to a 30-day turnaround supply and documentation of unannounced
inspections.

Ofﬁce of the Assistant Secretary for Management
Unimplemented Recommendations and Status
Report: Evaluation of VA Compliance with Federal Energy Management Policies, 02-00986-
101, 3/9/05

OIG conducted an evaluation to determine whether VA complied with Federal energy
management policies and to assess VA’s effectiveness in reducing energy consumption and
costs. OIG conducted the evaluation in accordance with the Energy Policy Act of 1992,
which encourages OIGs to conduct periodic reviews of their agencies’ compliance with
the National Energy Conservation Policy Act of 1978 and other laws relating to energy
consumption.

Status: As of March 31, 2006, six of seven recommendations remain unimplemented. NCA
and VBA will provide the names once VHA has identiﬁed the energy managers serving each
VISN. VHA will incorporate the duties of Energy Manager into the position descriptions of
selected facility managers. Energy management responsibilities are already incorporated
into the capital asset manager position description. Once facility energy supervisors have
been selected, VHA will conduct a survey to determine its training needs. VBA has four
owned facilities and one direct leased facility that are eligible for energy audits. The VARO
Phoenix is a new direct leased facility that was activated within the past year and does not
require an audit. The audit for VARO Montgomery was completed June 3, 2005. VBA will
conduct audits for the Jackson, Houston, and St. Petersburg VAROs during FY 2006.

Revisions to Handbook 3140 regarding procedures of the Management and Decision Support
System were completed in November 2005, and a draft is currently being circulated for
review within the NCA organization. Interim guidance has been provided to ﬁeld personnel
who are responsible for the input of energy data. VBA’s local ofﬁcial is the ﬁeld station
Energy Liaison who, prior to input, reviews and approves data for the VSSC Energy
Database. A member of VBA’s Central Ofﬁce Energy Team then reviews the VSSC automatic
data validation checks report and forwards exceptions to the relevant local ofﬁcial for review
and explanation/correction. Testing of the MADSS database has been completed. OIG will
close the recommendation upon receipt of the 2005 energy and cost report.




                                                                    Appendixes        •    49

            Semiannual Report to Congress             October 1, 2005 – March 31, 2006




Ofﬁce of Human Resources and Administration
Unimplemented Recommendations and Status
Report: Follow-up Audit of Department of Veterans Affairs Workers’ Compensation
Program (WCP) Cost, 02-03056-182, 8/13/04

OIG conducted a follow-up audit of the VA Workers’ Compensation Program. A 1998 OIG
audit identiﬁed opportunities for VA to strengthen WCP case management and reduce
program costs by more effectively identifying employees who can be brought back to work
or should be removed from the rolls. A 1999 OIG audit found that VHA was vulnerable to
abuse, fraud, and unnecessary costs associated with WCP claims in certain high-risk areas
reviewed. The objectives of the current audit were to:
1. 	    Evaluate implementation of recommendations included in the 1998 and 1999 OIG
        WCP audits.
2. 	    Identify opportunities to improve VA’s case management associated with WCP claims
        and reduce program costs.
3. 	    Identify the extent of potential fraud associated with WCP claims.

Status: As of September 30, 2005, 15 of 16 recommendations remain unimplemented
pending VA actions. A Workers’ Compensation Strategic Planning Committee was formed
in October 2004, and a strategic plan was approved in February 2005 that consists of ﬁve
strategic goals: case management; return to work; education; partnerships; and identify
and reduce fraud, waste, and abuse. The Strategic Planning Committee meets monthly to
review progress toward meeting the goals.
Managers from both OIG and the Ofﬁce of Human Resources and Administration met
on March 29, 2006, to discuss planned actions that could satisfy the intent of certain
recommendations and lead to their closure. The representatives also agreed to meet on a
regular basis to discuss any remaining issues, the progress that is being made on resolving
those issues, and what still needs to be done to allow OIG to close them.

Multiple Ofﬁce Action
Unimplemented Recommendations and Status
Report: Issues at VA Medical Center Bay Pines, Florida and Procurement and Deployment
of the Core Financial and Logistics System (CoreFLS), 04-01371-177, 8/11/04

OIG conducted an evaluation of selected patient care and administrative issues at the Bay
Pines VA Medical Center (BPVAMC), Bay Pines, Florida. The evaluation also included reviews
of VA Central Ofﬁce contract procedures and the deployment of CoreFLS.

The Secretary, Members of Congress, and other stakeholders requested that the OIG
review reported delays in elective surgeries, major shortages of surgical supplies, and
other allegations concerning BPVAMC activities; and whether the deployment of CoreFLS
contributed to these reported problems. The Secretary also requested a private contractor
to determine the viability of the CoreFLS software package to accomplish expected goals.

Status: As of September 30, 2005, 15 of 66 recommendations remain unimplemented
pending actions by a number of VA staff ofﬁces. The Ofﬁce of Management continues



 50 	   •     Appendixes

October 1, 2005 – March 31, 2006                VA Ofﬁce of Inspector General





to review expenditures made to the CoreFLS vendors and review all travel expenditures
submitted by the vendor. The issue of discounts for Phase IV work and/or award fee will be
considered within the context of OIG’s continuing investigation of this matter.

Federal Information Processing Standards Publication 201 was issued in February 2005. It
mandates that all departments be able to implement identity prooﬁng and issuance process
by October 2005, and begin issuing personal identiﬁcation veriﬁcation cards by October
2006. Furthermore, OMB has requested that a national rollout be completed by September
30, 2008. It is anticipated that VA’s implementation of FIPS 201 requirements will correct
concerns about background checks and contract employees as presented in the OIG report.
However, this issue has not been ﬁnalized by OMB. Decisions on future CoreFLS activities
are still pending.




                                                                 Appendixes        •    51

         Semiannual Report to Congress   October 1, 2005 – March 31, 2006





52   •     Appendixes

October 1, 2005 – March 31, 2006               VA Ofﬁce of Inspector General




                                  APPENDIX C

         INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the speciﬁc pages in this semiannual report to the
reporting requirements where they are prescribed by the Inspector General Act of 1978
(Public Law 95-452), as amended by the Inspector General Act Amendments of 1988 (Public
Law 100-504), and the Omnibus Consolidated Appropriations Act of 1997 (Public Law 104-
208).
  IG Act             Reporting Requirement                                 Page
References
Section 4 (a) (2)    Review of legislation and regulations                  54
Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies          7-23
Section 5 (a) (2)    Recommendations with respect to signiﬁcant            7-23
                     problems, abuses, and deﬁciencies
Section 5 (a) (3)    Prior signiﬁcant recommendations on which              43
                     corrective action has not been completed
Section 5 (a) (4)    Matters referred to prosecutive authorities and         i
                     resulting prosecutions and convictions
Section 5 (a) (5)    Summary of instances where information was             54
                     refused
Section 5 (a) (6)    List of audit reports by subject matter, showing     33-41
                     dollar value of questioned costs and
                     recommendations that funds be put to better use
Section 5 (a) (7)    Summary of each particularly signiﬁcant report       7-23
Section 5 (a) (8)    Statistical tables showing number of reports and      55
                     dollar value of questioned costs for unresolved,
                     issued, and resolved reports
Section 5 (a) (9)    Statistical tables showing number of reports and       56
                     dollar value of recommendations that funds be
                     put to better use for unresolved, issued, and
                     resolved reports
Section 5 (a) (10)   Summary of each audit report issued before this       44-51
                     reporting period for which no management
                     decision was made by end of reporting period
Section 5 (a) (11)   Signiﬁcant revised management decisions                55
Section 5 (a) (12)   Signiﬁcant management decisions with which             54
                     the Inspector General is in disagreement
Section 5 (a) (13)   Information described under section 5(b) of the        54
                     Federal Financial Management Improvement Act
                     of 1996 (Public Law 104-208)




                                                               Appendixes        •   53

         Semiannual Report to Congress              October 1, 2005 – March 31, 2006



 INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)
 Prior Signiﬁcant Recommendations Without Corrective Action and
 Signiﬁcant Management Decisions
 The IG Act requires identiﬁcation of signiﬁcant revised management decisions,
 and signiﬁcant management decisions with which the OIG is in disagreement.
 During this 6-month period, there were no reportable instances under the Act.

 Obtaining Required Information or Assistance

 The IG Act requires the OIG to report instances where access to records or
 assistance requested was unreasonably refused, thus hindering the ability to
 conduct audits or investigations. During this 6-month period, there were no
 reportable instances under the Act.

 Federal Financial Management Improvement Act of 1996
 (Public Law 104-208)
 The IG Act requires OIG to report instances and reasons when VA has not met
 the intermediate target dates established in the VA remediation plan to bring VA’s
 ﬁnancial management system into substantial compliance with the requirements
 of Public Law 104-208. VA met its March 2006 milestones.

 Review and Impact of Legislation and Regulations

 The IG Act requires OIG to report on its reviews and comments on the impact
 of pending legislation and regulations. OIG coordinated concurrences on 20
 legislative, 32 regulatory, and 75 administrative proposals from Congress,
 OMB, and VA. Of the 127 items, OIG commented or made recommendations
 concerning the impact of the legislation and regulations of 38 of them on
 economy and efﬁciency in the administration of programs and operations or the
 prevention and detection of fraud and abuse.

 Reports Issued Before this Reporting Period Without a Management
 Decision Made by the End of the Reporting Period

 The IG Act requires a summary of audit reports issued before this reporting
 period for which no management decision was made by the end of the reporting
 period. There were no internal OIG reports unresolved for over 6 months.

 Statistical Tables 1 and 2 Showing Number of Unresolved Reports
 As required by the IG Act, Tables 1 and 2 provide statistical summaries of
 unresolved and resolved reports for this reporting period. Speciﬁcally, they
 provide summaries of the number of OIG reports with potential monetary beneﬁts
 that were unresolved at the beginning of the period, the number of reports issued
 and resolved during the period with potential monetary beneﬁts, and the number
 of reports with potential monetary beneﬁts that remained unresolved at the end
 of the period.

 Questioned Costs

 For audit reports, it is the amounts paid by VA and unbilled amounts for which the
 OIG recommends VA pursue collection, including Government property, services
 or beneﬁts provided to ineligible recipients; recommended collections of money
 inadvertently or erroneously paid out; and recommended collections or offsets for
 overcharges or ineligible costs claimed.


54   •     Appendixes

October 1, 2005 – March 31, 2006                     VA Ofﬁce of Inspector General



Table 1: Resolution Status Of Reports With Questioned Costs


                                                                             Dollar Value
                     RESOLUTION STATUS                            Number
                                                                             (In Millions)
 No management decision by 9/30/05                                   0            $0

 Issued during reporting period                                      2           $.9

   Total inventory this period                                      2            $.9

 Management decisions during the reporting period.

 Disallowed costs (agreed to by management)                          2           $.9

 Allowed costs (not agreed to by management)                        0             $0

   Total Management Decisions This Reporting Period                 2            $.9

   Total Carried Over To Next Period                                0            $0




Disallowed Costs

Disallowed Costs are costs that contracting ofﬁcers or management ofﬁcials have
determined should not be charged to the Government and which will be pursued for
recovery; or on which management has agreed that VA should bill for property, services,
beneﬁts provided, monies erroneously paid out, overcharges, etc. Disallowed costs do not
necessarily represent the actual amount of money that will be recovered by the Government
due to unsuccessful collection actions, appeal decisions, or other similar actions.

Allowed Costs

Allowed Costs are amounts on which contracting ofﬁcers or management ofﬁcials have
determined that VA will not pursue recovery of funds.




                                                                    Appendixes         •     55

           Semiannual Report to Congress                         October 1, 2005 – March 31, 2006



 Table 2: Resolution Status Of Reports With Recommended Funds To Be
 Put To Better Use By Management
                                                                                              Dollar Value
                       RESOLUTION STATUS                                      Number
                                                                                              (In Millions)
No management decision by 9/30/05                                               58*            $1,233.1*

Issued during reporting period                                                   24                  $21.6

  Total inventory this period                                                    82            $1,254.7

Management decisions during the reporting period.

Agreed to by management                                                          24                  $155

Not agreed to by management                                                       0                   $0

  Total Management Decisions This Reporting Period                               24                  $155

  Total Carried Over To Next Period                                              58            $1,099.7

 * 	 These ﬁgures include contract review reports issued prior to 10/1/05. Contract review reports
      issued subsequent to 10/1/05 are not included and will not be included in future reports.

 Recommended Better Use of Funds

 For audit reports, it represents a quantiﬁcation of funds that could be used more
 efﬁciently if management took actions to complete recommendations pertaining
 to deobligation of funds, costs not incurred by implementing recommended
 improvements, and other savings identiﬁed in audit reports.

 Dollar Value of Recommendations Agreed to by Management

 Dollar Value of Recommendations Agreed to by Management provides the OIG
 estimate of funds that will be used more efﬁciently based on management’s
 agreement to implement actions, or the amount contracting ofﬁcers disallowed
 in negotiations, including the amount associated with contracts that were not
 awarded as a result of audits.

 Dollar Value of Recommendations Not Agreed to by Management

 Dollar Value of Recommendations Not Agreed to by Management is the
 amount associated with recommendations that management decided will not
 be implemented, or the amount of questioned and/or unsupported costs that
 contracting ofﬁcers decided to allow.




56     •     Appendixes

October 1, 2005 – March 31, 2006           VA Ofﬁce of Inspector General



                             APPENDIX D
                                   GLOSSARY
C&P                    Compensation and Pension
CAP                    Combined Assessment Program
CEO                    Chief Executive Ofﬁcer
CFS                    Consolidated Financial Statement
CMOP                   consolidated mail outpatient pharmacy
CoreFLS                Core Financial and Logistics System
CRC                    Colorectal cancer
DEA                    Drug Enforcement Administration
FBI                    Federal Bureau of Investigation
FCP                    Federal Ceiling Prices
FISMA                  Federal Information Security Management Act of 2002
FSS                    Federal Supply Schedule
FTE                    Full-time Equivalent
FY                     Fiscal Year
H/HHA                  Homemaker and Home Health Aide
IG                     Inspector General
IT                     Information Technology
MCCF                   Medical Care Collections Fund
MDS                    Minimum Data Set
NCA                    National Cemetery Administration
OA                     Ofﬁce of Audit
OA&MM                  Ofﬁce of Acquisition and Materiel Management
OCR                    Ofﬁce of Contract Review
OHI                    Ofﬁce of Healthcare Inspections
OI                     Ofﬁce of Investigations
OIG                    Ofﬁce of Inspector General
OMB                    Ofﬁce of Management and Budget
OR                     Operating Room
PCIE                   President’s Council on Integrity and Efﬁciency
PCS                    Permanent Change of Station
QM                     Quality Management
SSA                    Social Security Administration
USMS                   U.S. Marshals Service
VA                     Department of Veterans Affairs
VAMC                   VA Medical Center
VARO                   VA Regional Ofﬁce
VBA                    Veterans Beneﬁts Administration
VHA                    Veterans Health Administration
VISN                   Veterans Integrated Service Network
VR&E                   Vocational Rehabilitation and Employment
WCP                    Workers’ Compensation Program




                                                           Appendixes        •   57

Copies of this report are available to the public. Written requests should be sent to:
       Ofﬁce of the Inspector General (53B)

       Department of Veterans Affairs 

       810 Vermont Avenue, NW

       Washington, DC 20420


The report is also available on our website:
       http://www.va.gov/oig/53/semiann/reports.htm
For further information regarding VA OIG, you may call 202-565-8620.




Cover photo by Staff Sergeant Suzanne Day courtesy www.army.mil

Other photos courtesy Department of Veterans Affairs
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:         vaoighotline@va.gov




                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     October 1, 2005 - March 31, 2006
